<html>
<title> - GOVERNING THROUGH GOAL SETTING: ENHANCING THE ECONOMIC AND NATIONAL SECURITY OF AMERICA</title>
<body><pre>[Senate Hearing 114-448]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 114-448

                    GOVERNING THROUGH GOAL SETTING:
        ENHANCING THE ECONOMIC AND NATIONAL SECURITY OF AMERICA

=======================================================================

                                 HEARING

                               BEFORE THE

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS


                             FIRST SESSION

                               __________

                             JUNE 17, 2015

                               __________

        Available via the World Wide Web: http://www.fdsys.gov/

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs
        
        
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 


                          U.S. GOVERNMENT PUBLISHING OFFICE
20-563PDF                         WASHINGTON : 2016                          
        
________________________________________________________________________________________        
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="ccabbca38cafb9bfb8a4a9a0bce2afa3a1e2">[email&#160;protected]</a>  
        
        

        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
        
              
        

                    RON JOHNSON, Wisconsin Chairman
JOHN McCAIN, Arizona                 THOMAS R. CARPER, Delaware
ROB PORTMAN, Ohio                    CLAIRE McCASKILL, Missouri
RAND PAUL, Kentucky                  JON TESTER, Montana
JAMES LANKFORD, Oklahoma             TAMMY BALDWIN, Wisconsin
MICHAEL B. ENZI, Wyoming             HEIDI HEITKAMP, North Dakota
KELLY AYOTTE, New Hampshire          CORY A. BOOKER, New Jersey
JONI ERNST, Iowa                     GARY C. PETERS, Michigan
BEN SASSE, Nebraska

                    Keith B. Ashdown, Staff Director
                       Courtney J. Allen, Counsel
                   Rebecca Nuzzi, Professional Staff
              Gabrielle A. Batkin. Minority Staff Director
           John P. Kilvington, Minority Deputy Staff Director
         Brian F. Papp Jr., Minority Professional Staff Member
                     Laura W. Kilbride, Chief Clerk
                   Lauren M. Corcoran, Hearing Clerk



                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Johnson..............................................     1
    Senator Carper...............................................     7
    Senator Ayotte...............................................    23
    Senator Ernst................................................    26
Prepared statements:
    Senator Johnson..............................................    43
    Senator Carper...............................................    45

                               WITNESSES
                        Wednesday, June 17, 2015

Hon. Joseph I. Lieberman, Co-Chair, No Labels....................    11
Hon. Jon M. Huntsman, Jr., Co-Chair, No Labels...................    14
Andrew H. Tisch, Co-Chairman of the Board, Loews Corporation.....    17
Andrea Hogan, President and Chief Executive Officer, Merchants 
  Metals, Inc....................................................    19

                     Alphabetical List of Witnesses

Hogan, Andrea:
    Testimony....................................................    19
    Prepared statement...........................................    56
Huntsman, Hon. Jon. M. Jr.:
    Testimony....................................................    14
    Prepared statement...........................................    50
Lieberman, Hon. Joseph I.:
    Testimony....................................................    11
    Prepared statement...........................................    47
Tisch, Andrew H.:
    Testimony....................................................    17
    Prepared statement...........................................    53

                                APPENDIX

Chart referenced by Senator Johnson..............................    59
Chart referenced by Senator Johnson..............................    61
Chart referenced by Senator Johnson..............................    62
Chart referenced by Senator Johnson..............................    63
Chart referenced by Senator Johnson..............................    65
Chart referenced by Senator Johnson..............................    67
Chart referenced by Senator Johnson..............................    68

 
                    GOVERNING THROUGH GOAL SETTING:
        ENHANCING THE ECONOMIC AND NATIONAL SECURITY OF AMERICA

                              ----------                              


                        WEDNESDAY, JUNE 17, 2015

                                     U.S. Senate,  
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 9:34 a.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Ron Johnson, 
Chairman of the Committee, presiding.
    Present: Senators Johnson, Ayotte, Ernst, Sasse, Carper, 
Booker, and Lankford.

             OPENING STATEMENT OF CHAIRMAN JOHNSON

    Chairman Johnson. This hearing will come to order.
    Good morning. I want to welcome all of our witnesses and 
thank you for taking the time to appear and also for your 
thoughtful testimony. I see that Senator Lieberman is not here 
yet, but apparently he missed his first flight or it was 
canceled, but he is on his way, so we will look forward to 
welcoming him back to his Committee room.
    I would like to first ask unanimous consent to have my 
written statement entered into the record.\1\
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator Johnson appears in the 
Appendix on page 43.
---------------------------------------------------------------------------
    Senator Carper. Reserving the right to object--no, I am 
just kidding. [Laughter.]
    Chairman Johnson. Yes, he always does that.
    Senator Carper. Actually, we are getting along better here.
    Chairman Johnson. Normally, I ask when his back is turned 
to me. [Laughter.]
    But, I warn the witnesses, too, I want to spend a little 
bit more time than I normally do with an opening statement 
because this is a really important hearing, from my standpoint. 
I think your efforts are extremely important. I love the fact 
that you are starting with goals, which is--we have got three 
business people sitting at our witness table here. It is just 
critical. I mean, we will hear that in their testimony, how 
important it is to establish goals, because if we do not have 
an achievable goal, it is pretty hard to develop a strategy if 
it is not directed toward an achievable goal.
    But, let us start out today's Committee hearing with--
because it is a political discussion--the way I would always 
start out my business negotiations. I would imagine you are 
probably similar to me. I did not start my negotiations 
arguing. I would always spend a lot of time on the front end of 
any negotiation laying out all the areas of agreement. So, let 
us start today the way I would start those business 
negotiations, on a goal that we agree on. We do share the same 
goal as Americans. We all want a prosperous, a safe and secure 
America.
    We actually, by the way, issued a mission statement for 
this Committee. It is pretty simple: To enhance the economic 
and national security of America.
    We are all concerned about each other. We all want every 
American to have the opportunity to build a good life for 
themselves and their family. That is what this hearing is all 
about, how do you accomplish that goal? How do you accomplish 
that mission?
    And I see Senator Lieberman here. Welcome, sir.
    Senator Lieberman. Thank you, Mr. Chairman. I am sorry 
for--I apologize for U.S. Air. [Laughter.]
    Chairman Johnson. I just saw you were on Senate time, sir. 
[Laughter.]
    Senator Lieberman. Well, that too.
    Chairman Johnson. No. Chairman Lieberman, it is so good to 
have you back here. I will introduce everybody prior to 
testifying, but one thing I am noticing on your introduction, 
it does not say that you were one of the original cast members 
of the Senate Three Amigos---- [Laughter.]
    So you are back here--and, by the way, we have your 
replacement on the Committee, as well, so now we have Kelly 
Ayotte.
    Senator Lieberman. There was apparently some agreement that 
my replacement was not only smarter and more able, but much 
better looking. [Laughter.]
    Chairman Johnson. I would not confirm that or dispute it. 
[Laughter.]
    But, anyway, let me pick up where I left off, with that 
shared goal. If we concentrate on those shared purposes and 
shared goals, if we do not question each other's motives, if we 
engage in a process that you good men and women are engaged in 
trying to find the common ground, to actually solve some of 
these problems, we are going to be in a whole lot better shape. 
So, again, I want to start with that.
    Now, what you are engaged in is a problem solving process, 
and coming from a manufacturing background, I have solved a lot 
of problems, and there actually is a process you go through. In 
business, and this is borne out in testimony here, there is 
something called a strategic planning process, and in my mind, 
it has four steps to it.
    The first one is you have to ascertain the reality. You 
have really got to understand what the problem is. Then, based 
on that reality, you set achievable goals, which is what your 
group is trying to do here. Based on those goals, then you 
develop the strategies. And then the tactics are just there to 
support the strategies.
    Now, what I have found in Washington, D.C. is we are always 
at the tactical level. So, if you just engaged in tactics and 
the tactics are not tied to a strategy, that are not directed 
toward an achievable goal, that are divorced from reality, I 
think I just described a big part of the problem here in 
Washington, D.C.
    So, again, I really commend you for your involvement in 
this problem solving process, but I also want to take a step 
back, because I think you are kind of in the second step, and I 
want to spend a little bit of time on the first step, which, 
according to--Mr. Tisch, you recognize that the first step, you 
said in your testimony, is to identify the problem. I will add 
to that a little bit. You have to define it.
    And, then, I think you--really, the first step, though, in 
solving any problem, once you have defined it and identified it 
is you have to admit you have it. And, I would argue in 
America, and I think this is on a bipartisan basis, we have not 
leveled with the American public. I do not think we 
collectively understand the depth of the problem. I do not 
think we collectively have admitted we have the problem. And, 
until we get the public to the point of admitting the problem, 
we are, unfortunately, a long ways from solutions.
    Ms. Hogan, I love the fact in your testimony you talked 
about strengths, weaknesses, opportunities, and threats a 
(SWOT) analysis. Now, we were talking earlier, that is not a 
real common term here. When I say ``swat'' in Washington, D.C., 
people are looking for a fly or a mosquito. But, in a business 
strategic planning process, SWOT is strengths, weaknesses, 
opportunities, and threats.
    Let me just quickly go through a very fast, very 
abbreviated SWOT analysis on the American economy. What are our 
strengths? I would mention two. We are the world's largest 
economy. We are the world's biggest customer. I come from a 
manufacturing background. Manufacturers want to be close to 
their customers. It makes all the sense in the world. It is an 
enormous competitive advantage in a global economy. We are the 
world's biggest customer.
    Also, we have abundant and relatively cheap energy. If you 
are going to manufacture something, you need power, and cheap 
power is a whole lot better than expensive power. So, let us 
not artificially drive the cost of power up. Let us have a 
strong economy so we can certainly spend on keeping our 
environment clean, but let us keep energy cheap. Let us make 
sure it is abundant. Those are our strengths.
    What are our weaknesses? Well, take a look at our tax 
system. It is completely uncompetitive. If you are a global 
manufacturer wanting to come and take advantage of cheap energy 
and the world's biggest market, are you going to site your 
plant in Toronto with a 15 percent top marginal tax rate or 
Detroit at 35 percent? That is just not competitive. We have to 
recognize that reality and we have to fix our tax system.
    What about our regulatory environment? It is onerous. We 
have had hearings. There are multiple studies that show that 
the costs of complying with Federal regulations on an annual 
basis are approaching $2 trillion per year. Let me put that 
number in perspective. Only nine economies in the world today 
exceed or are larger than $2 trillion. That is the burden we 
are placing on innovators, on people that build things, on 
people who are trying to grow a business and create the good 
paying jobs. We have to reduce that burden.
    I will not spend a whole lot of time on our legal system, 
which is also a disaster and also holding our economy back.
    Now, those are our strengths. Those are our weaknesses. 
What are our opportunities? Well, let us fix those weaknesses. 
Enormous opportunities.
    And, of course, threats. Take a look at international 
issues. Senator Lieberman has been just a real leader in terms 
of recognizing the dangers that this Nation faces. But, I agree 
with Admiral Mike Mullen that our greatest threat to national 
security is our debt and deficit, which gets me to pretty much 
the last part of what I want to talk about here, is the 
reality.
    So, we have gone through the SWOT analysis. So, let us take 
a look at the reality of the situation in terms of our debt and 
deficit, and I have some sheets out here. I have some charts 
and I want to go through this.
    I really developed this concept, the way to describe the 
depth of the problem to the American people with discussions 
and the White House. I was one of the small group of Republican 
Senators that was working with the White House, trying to find 
some areas of agreement on the debt and deficit. So, sitting 
down in those talks, I started looking at how you define the 
problem. We do not have a 10-year budget window problem. We 
have a 30-year demographic problem. All the Baby Boom 
generation, who are retiring at the rate of 10,000 people per 
day, on a bipartisan basis we have made all these promises and 
we do not have a way to pay for it.
    Now, a lot of people talk about unfunded liabilities. The 
problem with that definition is it is too far in the future. It 
is $100 or $200 trillion and people just cannot get their heads 
around that. People can have some concept of what 30 years is, 
and unfortunately--as I always point out, my little baby girl 
just turned 32, and that went by like that. So, this problem is 
going to be on us in no time.
    So, let us just take a look at the Congressional Budget 
Office (CBOs) alternate fiscal scenario.\1\ Now, this is last 
year's and they are actually going to be holding a hearing 
today at the Budget Committee on their updated version. It is 
not going to vary by much. This is CBO's alternate fiscal 
scenario. No, keep it up. The first decade, CBO estimates about 
$9 trillion of deficit. Now, that is massive. That is going to 
take our debt up to $26, $27 trillion. I do not know if we get 
through the first decade without a debt crisis, but it pales in 
comparison to the second decade, $31 trillion of deficit. The 
third decade, $87 trillion, for a whopping total over 30 years 
of $127 trillion of deficit.
---------------------------------------------------------------------------
    \1\ The chart referenced by Senator Johnson appears in the Appendix 
on page 59.
---------------------------------------------------------------------------
    Now, put that in perspective. The entire net private asset 
base of America is $110 trillion. So, that is the problem we 
are trying to deal with.
    Now, a way to try and adequately lay this out so it is 
comprehendible is a one-page income statement. Again, we get 
these four-inch thick budget binders and it just does not lay 
it out. You can really describe the Federal Government in one 
page, on a one-page income statement, and I have done it here 
for the 30-year deficit. You have three columns, outlays, 
revenue, deficit. The first two rows really point us in the 
direction of what needs to be fixed, and, of course, you guys 
recognize that with your goals.
    Social Security over the next 30 years will pay out about 
$15 trillion more in benefits than it takes in the payroll tax. 
Medicare will pay out about $35 trillion more in benefits that 
it takes in the payroll tax. That is $50 trillion of the $127 
trillion. The rest of that deficit is in interest, $71 trillion 
that is not doing anything to improve the lives of ordinary 
Americans. It is paying off our bond holders.
    So, this directs our activity. We have to make Social 
Security and Medicare solvent. We cannot run up those deficits, 
so we do not incur the debt, so we do not have to pay that 
interest. And, of course, that is one of your goals.
    Now, this next chart\1\ in case anybody is thinking this 
alternate fiscal scenario is overstating the case, take a look 
at the last 20 years in terms of average spending as a percent 
of gross domestic product (GDP). Now, those are estimated based 
on actuarial math. Defense the last 20 years, we spent about 
3.9 percent of our GDP on defense. This scenario has us 
spending about 3.5 percent. Other programs, we spent about 6.7 
percent. This scenario is only six, and interest for the plug.
---------------------------------------------------------------------------
    \1\ The chart referenced by Senator Johnson appears in the Appendix 
on page 61.
---------------------------------------------------------------------------
    Now, next chart.\2\ I hear all the time that--this is not 
the right one. You have them in your packets. I hear all the 
time, well, why do you guys not just do Simpson-Bowles? We have 
done about 81 percent of Simpson-Bowles. We got about $700 
billion of tax increases in the fiscal cliff deal. We got about 
$2.1 trillion of spending constraint in the Budget Control Act. 
So, we have done about 81 percent, but it did not really change 
the trajectory.
---------------------------------------------------------------------------
    \2\ The chart referenced by Senator Johnson appears in the Appendix 
on page 62.
---------------------------------------------------------------------------
    Now, if you really want to solve problems, you have to use 
real information. Again, I do not have the chart, but I have it 
in your pamphlet here. We need to look at real information. We 
cannot rely on demagoguery. You want an example of demagoguery? 
Paul Ryan puts forward a proposal on Medicare, premium support, 
whatever you want to call it. To my knowledge, it has never 
been scored, but there has been a political reaction to it. We 
had political opponents run an ad, a Paul Ryan look-alike 
pushing Granny off the cliff, and it was effective. Where that 
ad was run, the Republican did not win. But, I would argue, how 
does that do anything to solve our problems? Let us start using 
real information.
    So, I have developed a solutions menu. I hear all the time, 
well, Social Security, that is the easy one to fix. Oh, yes? 
You try it. I have two sheets here.\3\ This is available on my 
website. But, we have one sheet that shows by decade the score 
of different solutions that have been proposed. How much of 
that $15 trillion in Social Security would something solve?
---------------------------------------------------------------------------
    \3\ The chart referenced by Senator Johnson appears in the Appendix 
on page 63.
---------------------------------------------------------------------------
    Let us just pick one. Let us say we increase the age of 
retirement from 67 to 70. That saves about $1 trillion--oh, by 
the way, over 4 years. Now, in today's political environment, 
that is a draconian change to Social Security. That would only 
save $1 trillion of the $15 trillion deficit. We have to use 
real information. We have to get away from demagoguery. We are 
only going to solve these problems with the truth.
    Here is a truth people do not want to recognize, because I 
hear it all the time, and this is one of the reasons the 
American people do not understand the depth of the problem is 
because they are told repeatedly that Social Security is 
solvent until the year 2033. It is not. It is already paying 
more out in benefits than it is taking in the payroll tax. It 
is already in a deficit cash-flow situation, except for the 
fiction of the Social Security Trust Fund, that accounting 
convention.
    Let me just describe how that is just an accounting 
convention. You have about $2.77 trillion of U.S. Government 
bonds in the trust fund, so it is an asset to the trust fund. 
The problem is, a U.S. Government bond is a liability to the 
Treasury. If you consolidate the books of the Federal 
Government and you are looking at this is a liability to the 
Federal Government, Social Security, that transaction nets to 
zero, and the Office of Management and Budget (OMBs) own 
publication says that. I have two quotes. One is just talking 
about the trust fund is just a bookkeeping convention. It is 
really not any asset that can really pay out those benefits. 
Next chart.\1\
---------------------------------------------------------------------------
    \1\ The chart referenced by Senator Johnson appears in the Appendix 
on page 65.
---------------------------------------------------------------------------
    Basically, that transaction of netting the trust fund asset 
against the Treasury liability, it nets to zero. But, by the 
way, the trust fund does exist. I have a picture of it. Next 
chart.
    That is it. That is the Social Security Trust Fund.\2\ It 
is a four-drawer file located in Parkersburg, West Virginia. 
This is what the American people are expecting are going to be 
paying off the cash-flow deficit of Social Security over the 
next 20 or so years. That is not being honest with the American 
public.
---------------------------------------------------------------------------
    \2\ The chart referenced by Senator Johnson appears in the Appendix 
on page 67.
---------------------------------------------------------------------------
    So, the last thing I would just say on this chart\3\ is a 
solution menu on Medicare. It is pretty sparse. We do not have 
many solutions to fill a $35 trillion gap.
---------------------------------------------------------------------------
    \3\ The chart referenced by Senator Johnson appears in the Appendix 
on page 68.
---------------------------------------------------------------------------
    So, let me close with one little story. Because unless we 
are willing to recognize these realities, unless we 
collectively are willing to take that first step in solving any 
problem, admitting we have one, again, I will emphasize, we are 
not going to be achieving the goals that you are courageously 
setting out here.
    I was in the White House for a 2-hour meeting. President 
Obama joined the meeting for the last half. And, of course, 
President Obama wanted everything on the table for discussion, 
tax increases, spending restraint. I mean, fair enough. And, I 
said, Mr. President, if you are serious about wanting 
everything on the table, the way to get everything on the 
table, at least for discussion, is use your bully pulpit. Tell 
the American people the truth. And I slid a chart similar to 
the one I just had up there on the 30-year deficit. Show the 
American people the depth of the problem so that we 
collectively take that first step and know we have the problem.
    You know what he said to me? He said, ``Ron, we cannot show 
the American public numbers that big. If we do, they will get 
scared. They will give up hope. And,'' he said, ``besides, Ron, 
we cannot do all the work. We have to leave some work for 
future Presidents, future Congresses.'' Now, that is an almost 
verbatim quote. I have witnesses. Kelly was one of them.
    I think you all realize that without Presidential 
leadership, we cannot do big things in this country. But, 
again, without recognizing the reality of the situation, 
without having elected officials being willing to tell the 
American people the truth, we are a long way toward being able 
to agree on and vote on and pass the solutions to the problems 
to the goals that you set out.
    So, again, I just want to commend all of you for being 
involved in this process. Thank you for your courage. I hope 
you succeed. I am certainly going to dedicate myself to doing 
everything I can to help you succeed.
    And, with that, Senator Carper.

              OPENING STATEMENT OF SENATOR CARPER

    Senator Carper. Thanks, Mr. Chairman. Thanks for pulling 
this together. It is great to see all of you this morning.
    As Senator Lieberman knows, I oftentimes travel back and 
forth to Washington on the train and catch an early train in 
the morning. This morning, I sat in the quiet car, and in the 
very front of the quiet car, they have a couple of seats on 
either side of the aisle where they have two seats facing each 
other, and so as many as four people can sit there. And on my 
right were a family with a couple of kids and a mom and another 
passenger. I sit down in a seat, Joe, where there was an adult 
woman who was, like, all curled up asleep, in one of the two 
seats facing each other, but the other seat was empty. And, so, 
I sat down there and the conductor came by and collected my 
ticket and she continued to sleep all the way down to 
Baltimore. The train stopped in Baltimore and people got on 
board and she continued to sleep. And then the train pulled out 
and kind of jerked a little bit and she opened her eyes and she 
looked at me and she said, ``You look so familiar.'' I said, 
``I am Joe Lieberman.'' [Laughter.]
    She said, ``I thought I was dreaming.''
    Senator Lieberman. She called me later that day----
    Senator Carper. It was today.
    Senator Lieberman [continuing]. And I said----
    Senator Carper. I gave her your card.
    Senator Lieberman. I said, ``It is Carper again.'' 
[Laughter.]
    Senator Carper. It is great to see you, my friend.
    Senator Lieberman. It is great to see you.
    Senator Carper. It is great to see you, my friend.
    Last time I talked with Joe Lieberman--this is forever--I 
told Joe I love him, and I really do. When he ran for 
President, I think you were the best of the Republicans running 
maybe the last time out, Governor. You are the pick of the 
litter. When Joe ran in 2004, I had the privilege of being his 
Campaign Chairman in the State of Delaware. I am trying to 
remember that night that we had all those primaries that night, 
what State did you--where was your best finish in the whole----
    Senator Lieberman. Senator Carper, there is no doubt, no 
lack of clarity. The best race I ran was in Delaware. 
[Laughter.]
    That was because of the Chairman that I had in Delaware.
    Senator Carper. In spite of your Campaign Chair. We beat 
out John Edwards by seven votes, I think, in second place.
    Senator Lieberman. Yes. That was important.
    Senator Carper. It was----
    Senator Lieberman. It was symbolic.
    Senator Carper [continuing]. A resounding win. And, I was 
about to hold a press conference on election night in Delaware, 
on primary night, and announce that we had a second place 
finish in Delaware, we were on our way, and I got this phone 
call from Joe on my cell phone, he said, ``I am pulling out.'' 
I said, how could you do that? We are on a roll here.
    Senator Lieberman. In Delaware.
    Senator Carper. In Delaware. [Laughter.]
    We are the first State, the State that started a Nation. We 
have to get it started somewhere.
    Well, it is great to see you----
    Senator Lieberman. Thank you.
    Senator Carper [continuing]. And to be in this room where 
you provided great leadership for all those years, you and 
Susan Collins. What an example you set for the rest of us.
    Before I get into some serious remarks, I just wanted to 
ask you, Senator Lieberman, do you recognize the young woman 
behind me over my, kind of, like, over my left shoulder?
    Senator Lieberman. Yes, I do.
    Senator Carper. Yes.
    Senator Lieberman. Perpetually young.
    Senator Carper. Yes, forever young.
    Senator Lieberman. That would be Janet.
    Senator Carper. Yes. Janet Burrell is leaving us, leaving 
us this week----
    Senator Lieberman. I heard that, yes.
    Senator Carper [continuing]. Leaving us this week after 37 
years of service to our country and some 30 years of service 
to----
    [Applause.]
    So, we are grateful to her for all that she has done and 
continues to do.
    I have prepared remarks, and what I want to do is just 
submit those for the record.\1\
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator Carper appears in the 
Appendix on page 45.
---------------------------------------------------------------------------
    But, I want to come back to the four goals that are 
outlined in your testimony, and I have a glass of water here. 
This is a full glass, but I am one of those glass half-full 
people, and I always see a glass, if it is half-full, or even 
less than half-full, I am a glass half-full guy. And, I think, 
I know several of you are, as well. And, I am a glass half-full 
guy on America, and I wanted to just kind of talk about the 
goals you have set for our country and just give you my own 
thoughts of how we are doing.
    One of the goals is to create 25 million new jobs over the 
next 10 years. That is an average that, actually, we came 
pretty close to that during the Clinton Administration, very 
close to that, as I recall. So, it is not an impossible task. 
In the last, I think, the last 2 years, we have been going 
along at about an average of 200,000 jobs per month, which 
would add up over 10 years to 25 million jobs. So, it is not 
entirely impossible. But, along the way, you are going to have 
a recession. We had a huge recession, as you know, several 
years ago.
    But, in our jobs, whether you happen to be a Senator or a 
Governor, a recovering Governor, which is what I am--you 
probably are, too, Governor Jon Huntsman--we do not create 
jobs. The President does not create jobs. Mayors do not create 
jobs. What we do is help to create a nurturing environment for 
job creation, as you know, and that includes a whole lot of 
different things. It includes access to capital. It includes 
common sense regulation, access to decisionmakers. It includes 
public safety, rule of law, the ability to defend our 
intellectual property, our research and development (R&D), from 
those who would like to steal it and beat us to the punch 
economically. It includes clean air and clean water. It 
includes affordable health care, the ability for people to 
access health care, but to do so in a way that is affordable. 
It includes access to foreign markets. It includes a budget 
policy that sort of embodies all of the above.
    And, so, I want to go right down the list that you all have 
submitted to us of your four major goals. The first one, create 
25 million new jobs over the next 10 years. How do we do that? 
I think we do that by creating a nurturing environment. We do 
not just do it here in Washington. We do it all across the 
country, and it is not just government. It is partnership. This 
is an all hands on deck deal and a shared responsibility, so we 
need a great partnership, the kind of partnership that, 
frankly, you are demonstrating to us today and the kind of 
partnership that Joe demonstrated when he served here for 25 
years.
    The idea of balancing the budget by 2030, I do not think 
that is a pipe dream. If you go back 6\1/2\ years ago, the week 
that Joe Biden and Barack Obama were sworn into office, that 
week 628,000 people filed for unemployment insurance. Think 
about that. In one week, 628,000 people; filed for unemployment 
insurance. Last week, about 279,000. Any time that number is 
under 400,000, we are adding jobs. We have been under 300,000 
now for months. So, we need to sustain that and to keep that 
going.
    The first year that Joe Biden and Barack Obama were in 
office, we lost 2.5 million jobs. Actually, the 6-months before 
they took office, 2.5 million jobs. The first 6 months they 
were in office, five million jobs, we lost them just like that 
in 12 months. And, the budget deficit that year spiked to $1.4 
trillion dollars, which is about 10 percent of GDP.
    This year, we are on path, I think, to realize a budget 
deficit of about one-third that, maybe a little bit less than 
one-third that is still way too much. But, is it an 
improvement? Sure. Are we heading in the right direction? Sure. 
It is about 3 percent of GDP. Is that too much? I think it is.
    And, I would suggest three things that we need for budget 
deficit reduction. The Chairman has mentioned--I take these in 
context. Full disclosure, I am a Bowles-Simpson believer. I am 
a true believer in Bowles-Simpson. I think they nailed it. I 
thought so then, and one of my criticisms of the current 
President, and, frankly, Democrat and Republican leadership in 
the Senate and House, is we never really fully embraced Bowles-
Simpson and it is unfortunate that we did not.
    But, there are three things to do for deficit reduction. 
No. 1 would be entitlement reform that saves these programs for 
our kids, that saves money and does not savage old people or 
poor people. That is No. 1.
    No. 2, tax reform that lowers the rates on the corporate 
side, broadens the base, and provides some money for deficit 
reduction, or for transportation investments, which is, I 
think, where we are heading right now. International tax 
reform, some of the money that is parked overseas, I think some 
of it may be deemed appropriate to bring back and I think we 
may end up doing that and that would probably be a good thing.
    The third thing we need to do on deficit reduction is to 
look at everything we do. We had a hearing here just earlier 
this week focused on just one area where we waste money, and 
just focus on everything we do like a laser, work with the 
Government Accountability Office (GAO) and OMB and all those 
folks. And, if it is not perfect, make it better.
    And, the last thing that is in--of your goals is make 
America energy secure by 2024. That is doable, and we are on a 
march to do that. We used to be the Saudi Arabia of coal. We 
still are. We are now the Saudi Arabia of natural gas. We are 
building four new nuclear power plants, the first time we have 
built them in years, and I think I am a nuclear guy, done 
safely, and I think that that is part of the solution. There is 
also wind, onshore, offshore, solar, geothermal. I mean, there 
is a great portfolio, energy security--energy conservation, the 
fifth fuel.
    So, those are all elements that are there. We are actually 
making some progress on these, some pretty good progress. Can 
we do better? Sure, we can, and I think your support and your 
example and your encouragement, your ideas, will help us do 
better still.
    You have given us a great agenda for our country and sort 
of, maybe by hook or crook, we are sort of executing it and we 
are making some progress. We need to make more.
    Welcome. Thank you so much for joining us today. Thank you 
for your leadership and for being great citizens.
    Chairman Johnson. Thank you, Senator Carper.
    I am going to quick just slide over my chart\1\ that shows 
we have done 81 percent of Simpson-Bowles.
---------------------------------------------------------------------------
    \1\ The chart referenced by Senator Johnson appears in the Appendix 
on page 62.
---------------------------------------------------------------------------
    With that, as Senator Lieberman realizes, it is the 
tradition of this Committee to swear in witnesses, and so if 
you would all rise and raise your right hand.
    Do you swear the testimony you will give before this 
Committee will be the truth, the whole truth, and nothing but 
the truth, so help you, God?
    Senator Lieberman. I do.
    Mr. Huntsman. I do.
    Mr. Tisch. I do.
    Ms. Hogan. I do.
    Chairman Johnson. Thank you. Please be seated.
    Now, we will get to the good part, the witnesses. Our first 
witness is Senator Joe Lieberman. Senator Lieberman spent 24 
years in the U.S. Senate, retiring in January 2013 following 
the end of his fourth term. He notably served as the Chairman 
of the Committee on Homeland Security and Governmental Affairs 
(HSGAC). He did a fine job and really set a tradition of true 
bipartisanship, which we are trying to follow in your 
footsteps, sir. Prior to being elected to the Senate, Senator 
Lieberman served as Attorney General (AG) for the State of 
Connecticut for 6 years.
    Currently, he works with the law firm of Kasowitz Benson 
Torres and Friedman, advising clients on independent internal 
investigations, as well as public policy and regulatory issues. 
In addition, he is also Co-Chair of the American Enterprise 
Institute's American Internationalism Project. Senator 
Lieberman.

  TESTIMONY OF HONORABLE JOSEPH I. LIEBERMAN,\1\ CO-CHAIR, NO 
                             LABELS

    Senator Lieberman. Thanks very much, Chairman Johnson, 
Senator Carper, Senator Ayotte, Senator Ernst, other Members of 
the Committee who may come and go.
---------------------------------------------------------------------------
    \1\ The prepared statement of Hon. Lieberman appears in the 
Appendix on page 47.
---------------------------------------------------------------------------
    It is really great to be back in this room. I was 
privileged to serve all 24 years of my time in the Senate on 
this Committee. I have the best memories of the work we did 
across party lines to try to make government more efficient and 
to try to solve some of the people's problems, and it just 
seems to me that there could be no more fitting place for No 
Labels to have the first congressional hearing on its National 
Strategic Agenda, or, more generally, the topic of governing 
through goal setting, than here, and I thank you both for 
giving me and my colleagues the opportunity to do that. I think 
in your opening statements, you made pretty clear that you get 
it, and we appreciate it very much.
    As I look back at my 24 years and the things that I am 
proudest of, every one of them involved bipartisan cooperation, 
and they were quite varied. Some were environmental. Some were 
national security. Some were human rights, et cetera, et 
cetera. But, they also involved, although we did not describe 
it that way, goal setting. That is, we would join together 
across party lines because we shared a goal, to try to solve a 
problem, to make something work better in government, even 
though we did not agree at the beginning on every little detail 
of how we were going to do it, and then we led to a process of 
negotiation and, ultimately, a lot of the time actually getting 
something done.
    I want to just go back and give two examples of that. The 
first was early on in my time in the Senate, I was on the 
Environment Committee. In 1990, there was really a quite 
remarkable agreement, bipartisan agreement, beginning with 
President Bush 41 and Senator George Mitchell of Maine, 
Democratic Leader of the Senate, about the fact that there was 
a problem of air pollution and there was a problem that was 
affecting people's health. There was a problem of acid rain 
that was having a really terrible impact on the environment, 
particularly in the Northeast. So, they set the goal, and we on 
our Committee, with Quentin Burdick, the Democratic Chair, but 
Pat Moynihan really leading the way, and John Chafee, Ranking 
Republican, worked together to report out a bill with 
bipartisan support.
    But then what happened was really quite remarkable, and 
maybe is a model. President Bush 41 and Senator George Mitchell 
agreed that this was just the beginning of the process and that 
this bill affected so many different regions and interests in 
the country that George Mitchell convened an ongoing series of 
meetings in his conference room at which members of the 
Environment Committee from both parties were there. It was 
really a thrill for me early on in my career. Boyden Gray, the 
White House Counsel for President Bush, Bill Reilly, the head 
of the U.S. Environmental Protection Agency (EPA) were there 
every day, and different groups from outside and inside the 
Senate, different regions, different points of view came in and 
we negotiated with them.
    We came to an agreement. We all compromised, because it is 
the only way you ever get anything done around here. It is not 
a compromise of principle, but you have to decide, I am going 
to accept less than 100 percent of what I really want here. And 
then we magically agreed that we were going to stick with the 
program, that we were not going to break on individual 
amendments. The result was the Clean Air Act passed in 1990. 
Acid rain was greatly diminished. And, people are living longer 
as a result of cleaner air.
    The second example is from right within this Committee, and 
there, in a way, the goals were--in the example I want to give 
were forced upon us by the terrorist attacks of 9/11, when 
everybody agreed we had to do some really bold things to make 
sure, to the best of our ability, that we would not be as 
vulnerable as we were on September 11, 2001.
    And, first, working with Senator Fred Thompson, who was the 
Chair of the Committee at that time, and then with Senator 
Susan Collins, this Committee led the way in creating the 
Department of Homeland Security and authorizing or creating the 
9/11 Commission, the Kean-Hamilton Commission, and then in 
negotiating this remarkable change in the Intelligence Reform 
and Terrorism Prevention Act of, I guess it was 2004, which 
constituted the most significant reforms and realignment of our 
national security structure since the beginning of the cold war 
in the late 1940s.
    And, the remarkable thing to say here is that we had 
differences along the way, some tough negotiations in the 
Senate, with the House, but they were not partisan. In some 
ways, they were ideological or they were turf battles about who 
was protecting what part of the Federal Government that we 
wanted to change. And, it was all because we had shared a goal 
and we decided to negotiate and compromise to make it happen, 
and as a result, I think the country has been a lot safer since 
then.
    I know that many Members of this Committee are frustrated 
by the inability of recent Congresses to summon the same spirit 
of bipartisan problem solving. It is not for lack of trying. I 
know that on this Committee there are members who are reaching 
across the aisle to try to get important work done, for 
instance, to reform our criminal justice system, to strengthen 
veterans' health care, to better prepare students for the 
workforce, to combat human trafficking. I thank you for this 
work that is critically important.
    Today, we are here to talk about the urgent work that 
remains to be done to address the festering problems that both 
you, Mr. Chairman and Senator Carper, described that threaten 
the future prosperity and security of our country. You know the 
nature of these challenges. You have described it very well in 
your opening statements. The question, of course, is how we 
meet them before they become crises or catastrophes, which they 
will.
    Today, my colleagues and I from No Labels aim to provide an 
answer, but the answer really is a process. It is not a 
specific answer. It is an identification of problems and then a 
process to solve them.
    We believe it is time for Congress and our next President 
to embrace a National Strategic Agenda for our country. No 
Labels National Strategic Agenda is based on this simple 
premise: to solve a problem, any problem, you need first to set 
goals. You need to know where you want to go. And then you need 
to get people to buy into those goals, and then put a process 
or plan in place to achieve them.
    At this time of pervasive partisan gridlock in Congress, 
this process, which in some ways used to be natural, the goal 
setting process, may actually be a way to lift Congress and the 
White House out of the partisan morass into a higher ground of 
goal setting and problem solving just as you, Mr. Chairman, 
described as common in the private sector, and, I must say, 
more common at the State Government level than it is here.
    Since last year, No Labels has been working to mobilize 
Members of Congress and citizens across the country around this 
idea, and their response has been, I would say, astounding. As 
of today, we have an impressive and growing number of Members 
of Congress who have supported a resolution calling for the 
creation of a National Strategic Agenda. It is over 50 Members 
of the House, and last week, Senator Bill Nelson and Senator 
Thune introduced legislation supporting such a resolution in 
the Senate.
    We are also organizing a grassroots army of citizens in New 
Hampshire, Iowa, and elsewhere to put the National Strategic 
Agenda on the screen, and hopefully on the agenda of all the 
Presidential candidates. It is--we have people on the ground in 
New Hampshire and Iowa. It is almost as if this is a national 
campaign, not with a candidate, but for an idea, which is to 
solve some of America's biggest problems and, basically, stop 
fighting and start fixing what America needs to be fixed.
    Let me just take a moment to say how No Labels settled on 
these four National Strategic Agenda goals, and the answer, I 
think, is significant. Basically, it is what the American 
people told us they wanted the Federal Government to do. Last 
year, No Labels conducted a number of national polls to ask 
what problems the people most wanted to see Congress and the 
President solve, and interestingly to me, they basically chose 
four that came out highest on the polls that probably most of 
us would say are our most significant problems. So, this was 
not something that Jon Huntsman and I cooked up. This came from 
the people.
    Create 25 million new jobs over the next 10 years. Balance 
the Federal budget by 2030. Secure Medicare and Social Security 
for the next 76 years. And make America energy secure by 2024.
    In the next period of time, Governor Huntsman, Andrew, and 
Andrea will explain why we believe it is so important to tackle 
these challenges now, how we believe a new National Strategic 
Agenda can empower Washington to do that, how a few tried and 
true problem solving techniques from the private sector have 
informed our strategy, and, finally, what the implementation of 
a National Strategic Agenda can actually look like.
    With, again, my personal thanks for giving us the 
opportunity to be heard, and with your permission, I would like 
to yield to my Co-Chair of No Labels--although I should give 
you the opportunity to introduce him. I think you are getting 
ready, Mr. Chairman. I am very proud to serve with a dear 
friend, former Governor, former Ambassador Jon Huntsman.
    Chairman Johnson. Well, thank you, Senator Lieberman, for 
your testimony, for your efforts, really, for your fine example 
and for your service to this country.
    Our next witness is Governor Jon Huntsman. Governor 
Huntsman is a former Governor of Utah and National Co-Chairman 
for the No Labels group. Governor Huntsman began his public 
service career as a Staff Assistant to President Ronald Reagan, 
having served four U.S. Presidents since, most recently as U.S. 
Ambassador to China. He was elected twice as Utah's Governor 
and also served as the Chairman of the Western Governor's 
Association.
    Currently, he serves as the Chairman of the Atlantic 
Council and on the boards of Ford Motor Company, Caterpillar 
Corporation, Chevron Corporation, Huntsman Corporation, the 
U.S. Naval Academy Foundation, and the University of 
Pennsylvania. Governor Huntsman.

 TESTIMONY OF HON. JON M. HUNTSMAN, JR.,\1\ CO-CHAIR, NO LABELS

    Mr. Huntsman. Thank you, Senator Johnson, and I could very 
well be the only witness you have ever had who could quote you 
the price of polyethylene. [Laughter.]
---------------------------------------------------------------------------
    \1\ The prepared statement of Hon. Huntsman appears in the Appendix 
on page 50.
---------------------------------------------------------------------------
    Chairman Johnson. I appreciate that.
    Mr. Huntsman. Back to your old days in business, of course.
    Thank you to Members of the Committee. It is a real honor 
to be here. And to Joe Lieberman, my thanks to him, my 
colleague. Joe is a modern day hero to a lot of people, and it 
is a real honor and privilege to be able to have him as part of 
our efforts with No Labels and, indeed, to be able to call him 
a great friend, even if he does not return my calls on weekends 
sometimes. [Laughter.]
    Senator Lieberman. Only on the Sabbath. [Laughter.]
    Mr. Huntsman. I just want to remind you all that we are 
here, Andrew, Andrea, the rest of us, as hard-headed realists. 
We have some experience under our belts. We have run 
businesses. We have run States. We balance budgets. We are 
raising families. I have two kids in the military, one 
grandchild now. I am looking to the future, as we all are, 
anticipating the kind of world we are about to enter. So, we 
come to you not with just sort of a newfangled set of 
suggestions, but an effort that, indeed, is catching on at the 
grassroots level and that has been given a great deal of 
thought and consideration by people with enormous levels of 
experience in life.
    I am here to answer two key questions. First, why is a 
National Strategic Agenda the right answer for America right 
now? And second, how would the implementation of this agenda 
actually work?
    Now, there is clearly agreement in this room, and Senator 
Johnson, you laid it out beautifully at the very beginning, and 
I think there is in most rooms across the country, that the 
problems we are discussing today are urgent: Job creation, 
fiscal responsibility, securing our social safety net, and 
energy security. They all belong at the top of Washington's 
``to do'' list, and yet few believe Washington will be checking 
these items off any time soon.
    Frustration, as we all know, is running very high. Some say 
we need to rethink our whole system with the formation of a 
third party or a Constitutional Convention. Others are focused 
on broad electoral reforms like reducing the influence of money 
in politics or making primary elections more inclusive with 
redistricting reform. I do not disagree. Some of these ideas 
have real merit. But many are also tough, multi-year, multi-
state slogs with uncertain odds for success.
    America does not have that kind of time. No Labels believes 
America's challenges are so urgent that we need to find a way 
to bring the country's leaders together now, largely within the 
system and with the leaders we already have. The National 
Strategic Agenda is how we do it.
    The National Strategic Agenda is modeled after an approach 
that we know works. Identify problems or opportunities. Set 
goals to fix those problems or seize those opportunities. And 
commit to a process to reach those goals.
    In a moment, you are going to hear from Andrew and Andrea 
and they are going to talk about how they use this approach to 
lead their businesses. But this approach is just as effective 
in government. It is how we did it when I was Governor of Utah, 
when we decided to fix a flawed tax code, an inefficient health 
care system, and an outdated educational system, and through it 
all, Utah was ranked as the most competitive State in America 
by some measurements.
    Embracing big goals and committing to a process to achieve 
them has also been instrumental at the national level, whether 
it was President Reagan and Tip O'Neill bringing their parties 
together to fix the tax code and shore up Social Security, or 
President Clinton and Newt Gingrich doing the same thing when 
they balanced the budget.
    Make no mistake, these bipartisan efforts were often 
contentious and controversial. There was no hiatus from 
partisanship and politicking. But these leaders hung in there, 
even when there were ample reasons not to, because they were 
invested in a big goal and committed to a process to actually 
achieve it.
    I believe the National Strategic Agenda can provide the 
framework to help revive that bipartisan spirit that Senator 
Lieberman so ably talked about and has so ably lived. Let me 
paint the picture for you very quickly as to what this could 
look like, and it is not all hypothetical. This is already 
happening.
    As Senator Lieberman just noted, some 50 members of the 
House and the Senate have signed onto a congressional 
resolution calling for the creation of a new National Strategic 
Agenda--50 members, half Republican, half Democrat. Meanwhile, 
No Labels is mobilizing our growing citizen army in New 
Hampshire, Iowa, and elsewhere to make the National Strategic 
Agenda a priority issue in the 2016 election cycle. Here is 
what the end game looks like.
    A new President comes into office, having called for the 
creation of a new National Strategic Agenda for the country. In 
the Inaugural Address, this new President promises to fly 
congressional leaders from both parties down to Camp David 
within the first hundred days to start work on the Agenda. At 
Camp David, the President and the congressional leaders pick 
one of the goals to focus on and they commit to a process. They 
assign working groups or congressional Committees to study the 
issues and suggest solutions. They agree to timelines and 
metrics for success. They agree to be accountable to one 
another, and above all, to the country. And they get to work, 
knowing that at least 50 Members of the House and the Senate, 
and who knows how many more we will have by Election Day, have 
already gone on record with a resolution saying they want to 
help create a National Strategic Agenda for America.
    Is this idea ambitious? Yes. Is it a total departure from 
how Washington has worked for well over a decade? You bet. Is 
it impossible? Absolutely not.
    Now, having spoken to many Members of this Committee, I 
know this is exactly where you want to focus your time and 
efforts. You and your colleagues want to tackle the big 
problems, and I commend you all for it. So, I submit to you 
today that the National Strategic Agenda can be a critical part 
of getting us there.
    Thank you all so very much for having us.
    Chairman Johnson. Thank you, Governor Huntsman.
    [Scattered applause.]
    You can have applause, I guess. [Laughter.]
    I agree.
    Senator Carper. Let the record show there was scattered 
applause. [Laughter.]
    Very scattered.
    Chairman Johnson. As opposed to thunderous?
    Mr. Huntsman. Basically, what I used to get as a piano 
player, too, so---- [Laughter.]
    Chairman Johnson. Our next witness is Mr. Andrew Tisch, who 
is a Co-Chairman of the Board of Directors of Loews 
Corporation. Previously, Mr. Tisch served as Chief Executive 
Officer (CEO) of Lorillard, Inc., and President of the Bulova 
Corporation from 1979 to 1990. Currently, he serves on the 
Board of Directors of CNA Financial Corporation, Texas Gas 
Transmission LLC, Boardwalk Pipelines LLC, Diamond Offshore 
Drilling Company, and as Director of K12, Inc.
    Mr. Tisch is highly involved in the New York community 
through civic organizations. In addition, Mr. Tisch is deeply 
committed to education and is involved in leadership Committees 
at Harvard Business School, Cornell University, NYU Tisch 
School of the Arts, and the Young Women's Leadership 
Foundation. He is the recent past Chairman of the Economic Club 
of New York, a Trustee of the Brookings Institute, and member 
of the Council on Foreign Relations.
    You are a pretty busy guy, Mr. Tisch, so we appreciate you 
coming here and look forward to your testimony.

  TESTIMONY OF ANDREW H. TISCH,\1\ CO-CHAIRMAN OF THE BOARD, 
                       LOEWS CORPORATION

    Mr. Tisch. Thank you, Mr. Chairman. Thank you also to 
Governor Huntsman and Senator Lieberman, and thank you, 
Chairman Johnson and Senator Carper, for your most supportive 
opening statements.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Tisch appears in the Appendix on 
page 53.
---------------------------------------------------------------------------
    Almost 5 years ago, I helped found No Labels because I 
believed that there had to be an alternative to the relentless 
partisanship that has made it virtually impossible for our 
Nation to solve big problems. There had to be a way to bring 
our parties together around a common vision and common goals. 
Many of you on this Committee have been working tirelessly to 
find and share that common vision with me.
    With No Labels' National Strategic Agenda, I believe that 
we have found a way by setting ambitious goals in four areas 
that are most important to the American people: jobs, the 
budget, Social Security and Medicare, and energy. The National 
Strategic Agenda can bring the focus, the discipline, and the 
accountability that is necessary to solve the problems that 
Senator Lieberman and Governor Huntsman and many of you on this 
Committee have so aptly described.
    Senator Lieberman just said something that bears repeating. 
To solve a problem, any problem, you must set goals, get people 
to buy into those goals, and put together a process or a plan 
to achieve them, and that is what the National Strategic Agenda 
does, and that is what we do every day at Loews Corporation.
    Although running a business is somewhat different than 
running a government, it does require a similar outlook. At 
Loews, our businesses are constantly changing. What began some 
70 years ago as a family business with a single hotel is today 
a multinational corporation spanning hotels and finance, 
energy, pipelines, and insurance. In a dynamic market, it is 
easy to get distracted, sidetracked, or to let short-term 
tactics divert you from long-term goals. But, that road 
inevitably leads to disappointment or failure, and it is too 
often the road that is chosen in Washington.
    In business, we tend to work in longer cycles, such as 5-
year projections. In public companies, we report results 
quarterly, and we report to our boards of directors monthly, 
and to our shareholders annually. We deal with distractions, 
but we try to get back to our long-range plans as quickly as 
feasible.
    Our first step is to identify a problem or an opportunity. 
The second step is to figure out how to solve that problem or 
how to seize the opportunity. Then we set a goal that 
identifies the metrics and the timeline for success. And then 
we hold the team accountable for meeting that goal, and that is 
how we succeed in our business, and that is how government has 
succeeded in the past, whether it is winning a war or sending a 
man to the moon.
    So, let us start with a few facts and illustrate the 
problems facing America. It begins with our economy, which 
despite recent improvements still is not creating enough good 
jobs that can sustain a middle-class living for enough people. 
When you account for the new people entering our labor force, 
the United States is still 3.6 million jobs below where we need 
to be to reach pre-2007 employment levels. Household income is 
about where it was at the turn of the century, meaning many 
Americans have not gotten a raise in 15 years. Meanwhile, small 
business, which is America's best job creation engine, is 
sputtering. In the last few years, more new businesses have 
been dying off than are being born, and that is the first time 
that that has happened since record keeping began in the 1970s.
    Then there are America's budget and entitlement challenges 
to which you, Mr. Chairman, alluded earlier. The CBO projects 
that the Federal Government will be paying almost $800 billion 
in annual interest by 2024, and that number will only grow if 
interest rates rise. Instead of investing in the future, in 
infrastructure, in education and research, more of our 
resources are going to be paying for profligate spending from 
the past.
    Of course, the two key drivers of long-term debt are Social 
Security and Medicare. These are programs that are critical to 
the security of so many families, and these programs must be 
preserved and protected. But these programs also must be 
updated, as you said, to adjust to the new realities of the 
21st Century. Whereas there were once 16 workers paying into 
Social Security for every beneficiary, today, there are three. 
Whereas once retiree benefits could be expected to be paid only 
for a few years, today, they are often paid for decades. People 
are living longer, and in most cases, healthier lives, which is 
one of the most exciting developments of our time. But our 
social safety net programs simply were not built to accommodate 
this new reality or some of the end-of-life costs.
    And, finally, there is energy, where our Nation is still 
much too vulnerable, with an electric grid that is vulnerable, 
with an economy that is still too exposed to volatility and 
global energy markets, and with a greater need for cleaner and 
more efficient use of energy.
    These are different challenges, but they all have something 
in common. Each gets harder to solve the longer we wait. I 
liken America's situation to an airplane heading into a big 
storm system. At several hundred miles out, the pilot need only 
make gradual adjustments to avoid the thunderclouds. Shift a 
degree here or a degree there and the pilot can get safely past 
the thunderclouds without much turbulence. But waiting too 
long, he or she will need to take sudden evasive maneuvers. 
Otherwise, it is going to be a bumpy and dangerous ride.
    Well, America is headed for a bumpy and dangerous ride if 
we do not rise to meet these problems soon, and that is why the 
National Strategic Agenda is such an essential idea. It 
identifies our most pressing problems, it sets realistic goals 
and timelines to solve them. As Governor Huntsman and Senator 
Lieberman have explained, it provides a rigorous process and a 
decisionmaking framework that could help the Congress do the 
work of and for the people.
    I thank you.
    Chairman Johnson. Thank you, Mr. Tisch.
    Our next witness is Ms. Andrea Hogan. Ms. Hogan is 
President and Chief Executive Officer of Merchants Metals. 
Prior to her current role, Ms. Hogan was with Bridgewell 
Resources, most recently as Vice President of Business 
Development. Previously, Ms. Hogan served in a variety of 
leadership roles within WESCO Distribution, Inc., where she 
ultimately led the global distribution of lighting, solar, and 
alternate energy products. Ms. Hogan also served as a member of 
the management team of Strategic Distribution, Inc., a leading 
provider of onsite integrated supply services focusing on the 
indirect material chain for large industrial consumers. Ms. 
Hogan.

  TESTIMONY OF ANDREA HOGAN,\1\ PRESIDENT AND CHIEF EXECUTIVE 
                OFFICER, MERCHANTS METALS, INC.

    Ms. Hogan. Thank you, Chairman Johnson and Members of the 
Committee, for the invitation to participate in this important 
discussion. It is truly an honor to be part of this 
distinguished panel and to testify before you today.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Hogan appears in the Appendix on 
page 56.
---------------------------------------------------------------------------
    As you introduced, I am the President and CEO of Merchants 
Metals, an Atlanta headquartered company that is one of the 
largest manufacturers and distributors of fence systems in the 
country. And while I am relatively new to No Labels, I share 
the resolve of Senator Lieberman, Governor Huntsman, and 
Chairman Tisch in urging the adoption of a National Strategic 
Agenda.
    As Mr. Tisch stated, for those of us privileged to lead 
great organizations, it is inconceivable that you could run an 
enterprise successfully without first establishing and 
communicating the key goals and objectives. In fact, I know of 
no business that can succeed long term without a clear vision 
of what success looks like, a shared, goal-driven agenda of 
strategic imperatives and a defined set of tactics aimed at 
achieving the organization's goals. And yet, remarkably, with 
the largest enterprise in the world, the United States of 
America, all $17 trillion of it in economic output terms, 
operates precisely this way today. We cannot allow this to be 
the case anymore.
    We are inspired and encouraged by the growing number of 
committed problem solvers in Congress willing to acknowledge 
our shared challenges and pursue bipartisan solutions, but our 
message today should be unambiguous. The gridlock in Washington 
has made it much harder for businesses such as Merchants Metals 
to execute against our most basic needs: Finding qualified 
workers, developing cost effective ways to get our products to 
market, and accessing credit.
    Mr. Tisch provided a few facts to illustrate the serious 
problems facing our Nation. At Merchants, we would refer to 
this as a burning platform, a set of circumstances that, if 
left unaddressed, will severely damage and in some cases 
destroy an organization. When presented with a burning platform 
problem, our first order of business is to find out what can be 
known and organize the facts in a way that makes sense.
    A useful framework that you referred to is the SWOT 
analysis. Once these elements are defined, a strategy can be 
developed to leverage strengths, eliminate or neutralize 
weaknesses, capture the top opportunities, and mitigate the 
threats. This is precisely what the National Strategic Agenda 
is designed to enable.
    From there, we create a plan and move to execution and 
accountability. Organizations both large and small can 
accomplish great things with great plans. Having been a part of 
teams with great plans, and those with no plan at all, I can 
tell you the former gets results and the latter do not.
    Employers across the country see firsthand each day 
weaknesses and threats to our shared enterprise, an economy 
that just does not work well enough for enough people, and a 
fiscal situation so uncertain it dampens the entrepreneurial 
spirit that once made the United States the global pacesetter 
in virtually every critical industry.
    The National Strategic Agenda provides a path to address 
those weaknesses and threats and that alone is good enough 
reason to adopt it. But the agenda can also build on our 
strengths and empower us to seize opportunities.
    Take just one of the goals on the agenda, creating 25 
million new jobs over the next decade. This is a goal we all 
surely embrace. But success requires a Federal Government to 
make meaningful progress in a number of policy areas, from 
creating a simpler, more competitive tax code, to reforming our 
immigration laws and investing in our public infrastructure.
    Last Tuesday, I sat with one of my top customers in Dallas. 
I asked him what I could do to help him grow his business and 
he said, ``You can find me some qualified workers. We have had 
five openings for over a year, and while the folks that we have 
interviewed can do the work, we have not yet met one that can 
meet the State and Federal requirements.'' Figuring out a way 
to help fill those jobs will help my customer grow his business 
and, in turn, will help me grow mine. And, remember, it is not 
a job until somebody is in it.
    By adopting the National Strategic Agenda and executing 
against these policy initiatives, Congress would enable us to 
capitalize on this Nation's unmatched strengths, our abundant 
natural resources, the world's most entrepreneurial workforce, 
and deep capital markets, just to name a few. And, it would 
allow us to seize new opportunities in industries like energy, 
technology, health care, and even fence systems.
    Our economy is still not humming, but we have navigated the 
post-crisis era better than most, a testament to our resilience 
as a people and our strength as a Nation. But, we need a plan. 
A Federal Government that adopts a plan and demonstrates 
progress toward its goals instills confidence in the population 
and, in turn, fuels new innovation, risk taking, and growth. 
Absent that firm foundation, we wait, we postpone, we take the 
safer path, or we take no path at all.
    The fence industry employs thousands of hard-working people 
from manufacturing through to installation, and in addition to 
aesthetics, our products provide two things that people value, 
privacy and security. But the industry has been reluctant to 
innovate because of scars from the Great Recession, seemingly 
uncontrollable health care, insurance, and transportation 
costs, and a very low confidence in the current political 
environment.
    There is so much untapped potential at Merchants Metals and 
thousands of businesses like ours that can be unleashed by 
rebuilding a sturdy economic foundation and renewing confidence 
in a functioning Federal Government. If you do your job here, I 
guarantee American business leaders will do theirs.
    The National Strategic Agenda provides a common sense path 
forward and it is time to get started. Thank you.
    Chairman Johnson. Thank you, Ms. Hogan.
    [Applause.]
    Again, thank you all for your testimony, taking the time, 
and just your involvement in what I think is a very worthy 
effort.
    Let me start my questioning with both Senator Lieberman and 
Governor Huntsman. Going back to the public really 
understanding the depth of the problem, understanding the 
reality--it is encouraging to me to see the poll results that 
they are identifying what our goals should be, and in a general 
sense, they understand the problem. But, I have given a similar 
type of Power Point presentation in Wisconsin to audiences 
generally smaller than this. I have given it to about 17,000 
people. And, I will guarantee you, those 17,000 people did not 
understand really what the 30-year deficit was, the real depth 
of the problem.
    I mean, do you share that evaluation of it? I will start 
with you, Senator Lieberman.
    Senator Lieberman. Yes, I must say that I was surprised and 
encouraged by the fact that in this surveying done last year, 
that the public expressed its understanding of what the most 
urgent problems facing our country are and the ones that need 
to be solved. Now, that does not mean that they are ready for 
everything that will have to be done to, for instance, get the 
Federal Government back in balance by 2030 or secure Social 
Security and Medicare for 75 years. But, they get it. They get 
the basic problem.
    But, you said it earlier, Mr. Chairman. Ultimately, this is 
all about leadership. It is about leadership from people in 
government and the private sector. We have two great leaders 
who testified on this panel today to educate the public about 
the consequences of not dealing with our biggest national 
problems, such as these four.
    So, there is almost an intuitive way in which they get it, 
the American people get it. And then it is up to the people who 
are privileged to be in public office to both lead in taking 
them through a process that Congress and the White House have 
to go through to actually solve some of these problems.
    Chairman Johnson. Yes. I think the American people have a 
general sense that this is simply not sustainable. But, for 
example, Medicare, very few people realize that right now, 
there is a dollar going into the problem in terms of payroll 
tax, three dollars being paid out in benefits. They do not 
realize that the estimate is $35 trillion of deficits in 
Medicare alone over the next 30 years.
    Governor Huntsman, do you have that same evaluation in 
terms of people just do not understand the depth, because, let 
us face it, elected officials have not exactly been forthright. 
I mean, all I have ever heard--not to be partisan--President 
Obama say about Medicare, it just needs modest reforms. I think 
it needs a lot more than that if we are going to save it.
    Mr. Huntsman. I would like to make a comment that gets 
right to the fundamental aspects of understanding numbers and 
balance sheets. You understand them. You have been in business. 
People here at this table understand them. I would have to tell 
you, while serving as Governor of a State, there was a real 
need to ratchet up the financial literacy of young people. Some 
had a hard time balancing a checkbook. Now, if you cannot 
balance a checkbook, how can you understand even your very 
rudimentary presentation of our Nation's numbers?
    It is an area we need to work on and I think it goes deep 
into our individual States, how we approach education, how we 
maybe tee up financial literacy as something that we all need 
to recognize is an area we need to work on. So, it may not 
connect directly with the policy aspects of what you are 
talking about, but it is a structural deficiency that we have.
    And I think the second area is the sources of information, 
where we derive our information, are not always trusted in this 
country, and I found that out just on the campaign trail. 
Everyone has their own sources of information and you apply the 
trust gap, or the trust deficit that exists in this country. 
People simply do not know what numbers to believe.
    Chairman Johnson. Yes.
    Mr. Huntsman. And, so, where do you go for good, reliable 
numbers that actually make the arguments where people can hear, 
everything you have said makes sense, but do I trust the 
numbers, and who crunched the numbers? So, I think we probably 
need to do a better job there.
    Finally, I would just say that there is a natural 
connection between what you are talking about and the whole 
National Strategic Agenda. While we are out on the road, and 
where we are soon going to be in New Hampshire with the 
convention, with a whole bunch of uncommitted voters, every 
stop allows us an opportunity to frame, as you articulated so 
well, frame the argument, frame the issue, and that, then, 
takes you to steps two and three, which, of course, we are very 
focused on. So, we would like to think that what we are doing 
is an extension of what you are calling for.
    Chairman Johnson. Well, again, my hope is No Labels will be 
the go-to group that will provide that bipartisan truth that 
the American people need to hear.
    Mr. Tisch and Ms. Hogan, I want you to comment on my down 
and dirty SWOT analysis of the American economy. I will start 
with you, Ms. Hogan, because you were the one that brought up 
SWOT that allowed me to talk about that.
    Ms. Hogan. Sure. I mean, I think it is right on. Maybe it 
is hard for the person on the street to articulate precisely 
what you articulated, but those are the foundational elements, 
that if we can set some goals and make progress toward those 
goals, I think you will see businesses and people alike 
responding in kind to those things. So, yes, I think you 
articulated what some of those big issues are and also what the 
strengths and the opportunities are.
    Chairman Johnson. Mr. Tisch, did I miss anything there? 
Again, it was pretty abbreviated. The world's largest economy. 
We have competitive energy prices, uncompetitive tax system, a 
pretty onerous regulatory climate.
    Mr. Tisch. I think you covered the big issues, and 
certainly that is what we are here to talk about today. These 
problems are enormous, and the problems are so big that no one 
party can solve them. It has to be solved by both parties 
together, and that is the important thing, message, that I 
think No Labels is trying to get across in its actions. And, 
your analysis, I think, is very good in showing that these are 
huge problems. These are huge problems that America must face 
and it must face it openly and really go after the solutions to 
them.
    Chairman Johnson. Ms. Hogan, I just had to go back, because 
you talked about talking to a business person saying he needed 
qualified workers. He could find them, they could do the job, 
but State and Federal requirements prevented them from being 
hired. Can you talk a little bit more about that?
    Ms. Hogan. Well, certainly, I think it speaks to 
immigration reform. The folks that were applying to the jobs 
that he offered, which were yard work and fence installation, 
quite simply could not produce the forms of ID to take the 
positions.
    Chairman Johnson. I also have a general sense, being in 
manufacturing myself and literally having a hard time finding 
people willing to work in manufacturing for the last 20 years, 
now that I am in this position, I travel over the State, I 
visit manufacturing operations. To a manufacturer, their 
complaint is they cannot find the people to work. So, we no 
doubt have some skills gaps, but we also have a worker gap, and 
I think there are multiple reasons for that, as well. I think 
we need to address that. Senator Ayotte.

              OPENING STATEMENT OF SENATOR AYOTTE

    Senator Ayotte. I want to thank the Chair.
    I want to thank all of you for being here and No Labels for 
really elevating the discussion at a national level on how we 
can solve problems together. And, of course, it is great to see 
Governor Huntsman and Senator Lieberman, two great leaders who 
have done so much in the public arena, and, of course, two 
great business leaders here, Mr. Tisch and Ms. Hogan. So, I am 
honored to be here with all of you, and I wanted to followup.
    I saw in your written testimony, Senator Lieberman, that 
you had said getting big things done in Washington has never 
been easy, of course, but not long ago, it was at least 
possible, and you cited the example, of course, the work that 
you did on the Clean Air Act. So, what has changed and how do 
we bring it back so that we can work together to solve some of 
these big problems for the country, because I think I can speak 
for many of my colleagues, we come here to do that and we want 
to find ways to get things done for the American people.
    Senator Lieberman. Thanks, Senator Ayotte. Thanks for your 
leadership and always eagerness to work across party lines to 
get things done.
    So, the reason I said getting big things done in Washington 
has never been easy is because we are, a big, diverse, 
sometimes raucous democracy, now about 320 million people, all 
represented here, and bringing very different perspectives. So, 
to get anything done, you really do have to go through the 
process that we are describing and often either events--awful 
events like 9/11--forced Congress to set goals, work together, 
negotiate, compromise to make things better, or sometimes 
around other kinds of events.
    We always talk about President Reagan and Tip O'Neill. In 
that case, they were not quite at the precipice about to fall 
over, but they were getting close to the edge and they were 
both public spirited enough to figure out how to compromise to 
save, in that case, the Social Security system.
    In some ways, now, the divisive forces--I mean, what you 
just said, Senator Ayotte, is so true, and I think about this a 
lot and say it, now that I am looking back at these 24 years I 
was privileged to be here. The reality is that the people I met 
as colleagues are, by and large, very public spirited. I mean, 
you did not spend all that time doing a lot of things that are 
not pleasant, like raising money to get elected office, to come 
here and be part of gridlock. Almost everybody I know came here 
to try to get something done for their district, their State, 
their country. And, there are forces at work that now pull us 
apart.
    In some sense, this National Strategic Agenda, the goal 
setting, is an attempt to go back to something that happened 
intuitively around here, often at big moments, and to force it 
by this process, in some ways like--somebody once said to me 
back in law school that if we were all perfect, we would not 
need law, or to be more vivid, somebody said, in heaven, there 
is no law because you do not need it. Everybody behaves. In 
hell, it is only law. And we are here on earth in between---- 
[Laughter.]
    And, therefore, we need the law to try to bring us to our 
best behavior and express at least our aspirations.
    Well, in a way, that is what this agenda is about. Through 
the National Strategic Agenda, to build support in Congress, to 
go out in the political process to try to get the Presidential 
candidates to commit to it, so that something different happens 
in January 2017, which is that the new President, whoever it 
is, knows that he or she has a bunch of people in Congress 
committed to this process and they implement it and, in fact, 
we get something done.
    Senator Ayotte. Well, I really appreciate what you are 
doing with this National Strategic Agenda, and we are looking 
forward to having you in New Hampshire. And, I think that you 
are right. Something has to change. We all have to be focused, 
and I hope that this election provides us with an opportunity.
    And, one thing that I think, as well, is in this National 
Strategic Agenda, that we look at compromise as a positive 
attribute for our leaders, that we understand that, as a 
Nation, we would not have been formed, and the great 
compromises that formed this Nation are ones that are so 
important as we look at some of these big challenges--the 
fiscal state of the country, the economy, and I hope that when 
this dialogue goes forward, that is something that we can spend 
some time on, that that is something that we think is positive 
in our leaders here.
    And, something that you said, Governor Huntsman, I wanted 
to touch upon, and that is our education system. You said that 
more financial literacy. I would fully agree with you on that, 
and I think it would be great to have that be part of this 
national discussion. I also believe civic literacy in terms 
of--we talk about history in the schools, but really engaging 
it on a much more direct civic level, I think, would be 
helpful, as well, as we go forward. So, I wanted to get your 
thoughts on that.
    Mr. Huntsman. Yes, and I appreciate that, Senator Ayotte. 
We have to have the next generation as full participants in 
this democracy. Now, I am raising seven kids, so I have a 
pretty good sense of what the Millennials think about----
    Senator Ayotte. I would say so. [Laughter.]
    Mr. Huntsman [continuing]. What is on their mind, and, they 
are drifting and peeling off of their political system, 
generally speaking, because they are losing trust and faith in 
the direction of the country. And, I would argue, part of it is 
they feel detached, money and everything else, that their vote 
does not matter any more. But, I also think it has been a while 
since they saw any points on the board.
    So, we grew up and our generation saw the end of World War 
II. We saw space. We saw the end of the Human Genome Project, 
one of the most important scientific goals set by both sides in 
generations. We saw the end of the cold war, all points on the 
board. And, I would argue that for my kids--and we have this 
discussion a lot--where are the points on the board? Where have 
I last seen an R and a D sitting together at the same table, 
focused on the same goal, and articulating why it is an 
American goal, not a party goal but an American goal?
    And, until we see this kind of thing, where we have 
strategy as opposed to tactics, then until we get to that 
point, our civics lessons are just not going to loom large in 
the minds of our young people. You want those civics lessons 
delivered by passionate, committed teachers, which we have all 
across this country, but you want them to fall onto students 
who say, I believe in my system, I want to get involved in my 
system, and I want to give back, and what I am learning in the 
classroom now is translatable into my citizenship. Right now, 
there is the disconnect and we have to figure out how we 
reinvigorate this democracy, particularly for the next 
generation.
    Senator Ayotte. Thank you all. I know my time has expired, 
but let me just say to Mr. Tisch and Ms. Hogan, I am so glad to 
see the private sector engaged in this, because, often, the 
private sector may be engaged on a transactional basis, on a 
particular one issue that impacts their business in this regard 
or one regulation, but to see that you are stepping back and 
looking at the big picture of how we can improve everything 
that will have a rising tide for everyone, I think is terrific. 
So, I thank you all for being here.
    Mr. Tisch. I think you would find that there is great depth 
of feeling in the business sector for the success of 
Washington. This has been a relationship that has gone back 
centuries, and the stronger that Washington is, the stronger 
that business is and vice-versa. And, it is a relationship that 
when we work together, we do best.
    Senator Ayotte. Excellent. Thank you all.
    Senator Lieberman. Mr. Chairman, if I may, I just want to 
say, one of the reasons that I was so happy to be asked to be 
Co-Chair with Jon Huntsman about 6 months ago is that I knew 
about No Labels, but I looked a little more closely at it. I 
was really impressed by the depth and number of leaders of the 
private sector who were supportive of this operation. And, now 
that I have gotten involved, this is, except in the broadest 
patriotic sense, totally selfless. I mean, nobody is going 
after a personal business agenda. These are people who are just 
plain embarrassed, frustrated, angry, like most Americans are, 
about the Federal Government and they see this as, well, the 
best alternative right now to try to turn it around.
    So, Andrew and Andrea are typical of that and I want to 
just thank them and praise them publicly for the way--this is, 
in some sense, really public service by them. They are running 
the risk of veering more toward the public sector than the 
private sector, to the detriment of their businesses, I am 
sure.
    Chairman Johnson. Trust me, I know their feeling. I am an 
accountant, I am a plastic salesman, and now I am here. Senator 
Carper.
    Senator Carper. Mr. Chairman, I would like to yield my time 
to Senator Ernst. I think she is really good to come and 
attend, and she has other things to go to. I am bouncing back 
and forth between another hearing on coal ash--you ought to 
enjoy that one, Senator Lieberman--coal ash, how to dispose of 
that, and maybe I can follow after you and ask questions.
    Chairman Johnson. Senator Ernst.

               OPENING STATEMENT OF SENATOR ERNST

    Senator Ernst. Thank you. I appreciate that. I do have 
another appointment coming up very soon.
    But, I do want to thank all of you for being here today. I 
am thoroughly impressed with No Labels and your effort for that 
National Strategic Agenda. It is so important, and it is those 
things that are so contentious when we are out on the campaign 
trail.
    One of the things that I heard from a number of people all 
across Iowa while I was engaged in the campaign is they are 
really concerned about where the Nation is going financially. 
That seems to be kind of that overarching theme, and there are 
so many pieces to that. So, I am glad to be here and represent 
those folks and I would like to just briefly share a story that 
I had heard from one of my constituents many years ago when I 
was serving in the Iowa State Senate.
    I had attended a town hall meeting down in Southern Iowa 
and a young lady that was at that meeting gave me her personal 
story. She was a very young mother. She was a single mother 
coming out of high school and she did not have the type of 
family that would be able to watch the children, her child, and 
send her off to college. So, she stayed in that rural community 
and she eventually got her Certified Nursing Assistant (CNA) 
certificate, and she went to work for a nursing home.
    Well, she was a very hard worker, very hard worker, and she 
was able to make ends meet through that job and government 
assistance. And, she worked so hard and they were so impressed 
with her, they wanted to keep giving her promotions or little 
pay raises here and there. And eventually, she got to a point 
where the nursing home wanted to make her a supervisor. She 
would get additional schooling. She would get additional pay.
    But when she went home and she had to think about it very 
carefully, she went home and she penciled out what she would 
make with the new position and what she would lose with her 
Federal entitlements, and it was really tough. She figured out 
she would have $200 less in her pocket every month if she took 
the promotion, and that is really tough. Two-hundred dollars in 
Southern Iowa goes a very long way. And, that is a lot of money 
for a young woman with a child.
    She decided to take the promotion, because she knew if she 
did not keep moving up, she would not get any further in life 
and she would not do any better for her and her child. That is 
a brave move, because I will tell you that there are a lot of 
people that would not make that choice and do not make that 
choice.
    We know that entitlements are a big problem out there, and 
unfortunately, we are putting the burden on many of these 
people that wish to do better, but they hit that fiscal wall--
actually, it is a cliff--and they do not want to jump off that 
cliff because that $200 or whatever it happens to be in an 
individual's case can mean the difference in making ends meet 
or not.
    What can we do as a Federal Government--what must we do as 
a Federal Government to address our entitlement situation, and 
how do we make it better for those folks so that they can 
really aspire to do better for themselves and their families 
and break out of that cycle? And, I would just love to hear 
your thoughts on that, please, to the entire panel.
    Mr. Tisch. Well, entitlements are supposed to catch you on 
the way down, not stop you on the way up. And, as a business 
person, I would simply try and write the entitlements in such a 
way that you do not penalize people for trying to pursue the 
American dream in the process, just plain and simple.
    Senator Ernst. And I think that is great. I think we 
struggle on the ways to--because it is such a contentious 
issue, but we struggle on finding--and being able to speak 
realistically about what we need to do as a government to help 
people out of that situation rather than keep them down. But, I 
would agree. It is kind of a safety net to catch people and 
help people when they truly need it the most and not stop them 
from advancing.
    Any other thoughts on that?
    Mr. Huntsman. I would just offer this, Senator. The numbers 
are big and they are mind-numbing when you start looking at the 
national budget. But when you look at entitlements, we get 
caught up in the R-D, red and blue debate, taking party sides, 
where it really is a discussion of basic math. If you do 
nothing, here is where you will be. And, we do not, I do not 
think, do a very good job articulating it to the American 
people, as this is basic math, ladies and gentlemen, and here 
is what we suffer if we choose to maintain the status quo, and 
here is what we will be robbed of.
    Solutions, I think we have all the solutions we need. They 
are sitting in think tanks and in your offices all over this 
town. What we have had is not a failure of ideas. We have had a 
failure of politics.
    Senator Ernst. A failure of action.
    Mr. Huntsman. We have had human failure, that is where it 
is, and that is--so, we get back to the goal setting. If we set 
the fundamental goal, after framing it with the right numbers, 
trustworthy numbers, a process, then, that leads out to a 
bipartisan solution, the American people would cheer on that 
effort. Of course, you would get people, special interest 
groups, who would try to take it down. But, the American 
people, by and large, would cheer it on, and that is why we are 
so enthusiastic about advocating this process around----
    Senator Ernst. Absolutely.
    Mr. Huntsman [continuing]. The goal setting and the big 
issues.
    Senator Ernst. Absolutely. Thank you. Senator.
    Senator Lieberman. Senator, I will just say quickly, the 
situation you describe is clearly a case of unintended 
consequences. I mean, an entitlement program, just as Andrew 
said, is put in place to stop people from falling too far down. 
Ending up being a disincentive to work is just--an advancement 
going up--is just wrong.
    I am fortunate I am at a stage in life where I can look far 
back, and this reminds me of debates during the 1990s which 
led, under President Clinton with bipartisan support, to 
welfare reform, and part of the whole deal was we have to make 
it more attractive to work than to be on welfare. We also 
adopted at that time--it still exists--the Earned Income Tax 
Credit (EITC), which was another way to say, we are going to 
give you a little tax break here for working so nothing 
happens--so we do not have situations like the one you are 
describing.
    Look, if there is anything I learned over my 24 years here, 
if you do not keep reviewing the impact of government programs 
on people, let alone on the Nation's economy and the budget, 
then it could be that they are having too many unintended 
consequences and should be reformed, and maybe that story 
should lead to a review of that particular program.
    Senator Ernst. Yes. Thank you all very much for your input, 
and thank you, Ranking Member Carper, for allowing me to speak. 
Thank you so much.
    Thank you, Mr. Chairman.
    Chairman Johnson. Thank you, Senator Ernst. Senator Carper.
    Senator Lieberman. Senator Carper is a pretty sweet guy, is 
he not? He is, yes. Surprisingly, really. [Laughter.]
    Senator Carper. I studied at the foot of the master.
    Senator Lieberman. Please. [Laughter.]
    Senator Carper. Well, actually, Joni, he actually 
encouraged me when I was elected to try to get on this 
Committee, and he said, you will like the issues, and who 
knows, you might even get to be Chairman some day. He was 
right. He was right, so thanks for that advice.
    I want to go back to what I believe--I think most of us 
believe--one of the key roles of government is to create a 
nurturing environment for job creation and job preservation. 
Again, as I said earlier, people in our jobs, my job, Ron's job 
today, Presidents, mayors, we do not create jobs. What we do is 
help create a nurturing environment. I just want to walk 
through some of the elements of that nurturing environment, and 
then when I finish, I am going to ask you if you disagree with 
any of those and do you have a couple you might like to add, 
all right. Are you ready? Here we go. It is about 12.
    First of all, a transportation system that moves people, 
products, goods where they need to go, when they need to go, in 
a cost effective way, energy efficient way.
    Second, common sense regulation. My dad used to say to my 
sister and me, always use some common sense. Some common sense 
regulation, which we are actually debating right now in the 
Environment and Public Works Committee on coal ash.
    Reasonable tax policy that is predictable and that fosters 
research and development, fosters innovation, plus helps pay 
the bills.
    Access to capital for businesses, large and small.
    Public safety, also rule of law, public safety rule of law.
    Trying to develop a world class workforce that provides the 
skilled workforce for the jobs that are out there.
    Affordable health care that takes good ideas from all over 
the world to deliver health care more cost effectively.
    A clean environment, healthy environment.
    Affordable energy. I have always been a big advocate of 
energy independence, but affordable energy, accessible energy, 
predictable energy.
    And more recently, cybersecurity. This is something Senator 
Lieberman worked on a lot, but the ability to protect 
intellectual property, R&D, those kinds of things, our 
personally identifiable information (PII).
    Another one we are debating here right now, access to 
foreign markets. The Trans-Pacific Trade Partnership is a good 
example of bipartisan cooperation, probably more--Republicans 
have given the President more support in some cases than our 
Democrats.
    One of my favorite moments on the Senate floor--you will 
enjoy this--we had just passed Trade Promotion Authorities to 
help move along the President's agenda on this trade agreement 
and we had about a half-dozen of our Republican colleagues were 
gathered in the well, and I walk up and I put my arms around 
them, and we just passed it with a lot of Republican support, 
so I just want to thank you as Republicans for giving such 
great bipartisan support to this President's agenda. They said, 
did we do that? Yes, you did.
    Chairman Johnson. We all agreed, did we not.
    Senator Carper. Yes, we did.
    And, finally, a budget policy that supports all the above, 
the things that I have walked through.
    I am sure I have forgotten some. I do not know if there are 
any that we ought to take off that list, but can you think of 
some more that, I do not know, pretend that it is all 
inclusive, but is that a pretty decent list or not? Anyone.
    Mr. Huntsman. Just having run a State and focused on how 
you succeed in the job creation exercise, which I think is most 
manifest at the local levels of government, and you are 
absolutely right. You create a framework that either attracts 
capital and brainpower or causes it to flee, because capital is 
a coward at the end of the day. It is going to find a safe 
haven and park. So, I found as Governor, if I was not 
attracting capital and brainpower, I was losing it to somebody 
else, and maybe it was Denver or Los Angeles or Phoenix, and 
then you start looking at what they are doing to succeed.
    Long ago, I served on the Economic Development Board of a 
country called Singapore, which has the best economic 
development apparatus probably in the world, and I watched with 
great interest in the 1990s after I served in the embassy there 
at how they went about developing their economy, small, five 
million people, limited geography, powerhouse economy. 
Different than we can do, but they had some elements that were 
pretty successful.
    For me at the State level, it always came down to taxes, 
schools, livability. I do not care whether you are Republican 
or Democrat. People look at the tax code. Investment looks at 
the tax code. We reformed ours to historic levels, and--I mean, 
you can read the history and see what happened to investment 
and the attraction of entrepreneurship, which before that were 
leaving for greener pastures.
    And, I would say, at our major research universities, which 
are key for the brainpower side of things, livability was a big 
part of it. You hit on so many aspects of livability--public 
safety, affordable health care, the environment, the rest, but 
I would just throw those in.
    Senator Carper. OK. Thank you.
    Senator Lieberman. Senator Carper, thanks. I mean, I think 
that is a great list of ways to stimulate economic growth and 
job creation. I mean, it is exactly what one would hope, if the 
next President chooses the goal of 25 million new jobs, that 
when that President sits down with the bipartisan leadership, 
those are exactly the kinds of ideas that should be discussed.
    I do want to say that what is impressive, I think, and 
important about what you have said is that these range across. 
They are not narrow. Everything you describe does have a 
measurable effect on economic growth and job creation, and if I 
can just step--I think consistent with No Labels, but simply 
say it is a cautionary note to the candidates, including at the 
Presidential level this year, because creating jobs, which 
American people want us to do, is not simple and it is not 
going to come just as a result of, for instance, raising taxes 
on business or a particular group of people at the top of the 
economic level and that is all you do. So, thank you for that 
list. I hope you are at the meeting with the next President.
    Senator Carper. Senator, I thank you. Ms. Hogan.
    Ms. Hogan. Senator Carper, when I think about adding jobs 
or adding sales people or opening branches, I do a SWOT 
analysis, and when I get to threats, I divide them up in terms 
of the things I think I can impact, my competitors, what is 
going on in that market, and the things I do not feel like I 
have any control over or any confidence in. And unfortunately, 
many of those things are on your list. So, from my perspective, 
real, tangible movement, progress on a number of these areas 
would give me the confidence in those areas of threats to 
invest in my business.
    Senator Carper. Mr. Tisch, before you speak--if I could 
have just another minute, Mr. Chairman--I will never forget, 
oh, gosh, 10 years ago, I was hosting a meeting in my office 
here in the Capitol of CEOs from about a half-dozen or more 
utilities from all over the country and the issue was clean 
air, multi-pollutant legislation which Senator Lieberman was 
good enough to support with me and actually provide a lot of 
leadership.
    But, one of the CEOs was--and we had been meeting about an 
hour on how to reduce the emissions of sulfur dioxide, nitrogen 
oxide, mercury, carbon dioxide, and at the end of the meeting, 
this one crusty old CEO from one of the Southern utilities 
said, ``Look, Senator,'' he said, ``here is what you should do. 
Here is what you should do,'' you being Congress, the 
government. He said, ``Tell us what the rules are going to be. 
Give us some flexibility, a reasonable amount of time, and get 
out of the way.'' That is what he said. Tell us what the rules 
are going to be, give us a reasonable amount of flexibility, a 
reasonable amount of time, and get out of the way. I will never 
forget that.
    Another great thing I will not forget is we were having a 
hearing in the Finance Committee on deficit reduction, and a 
guy named Alan Blinder who used to be Chairman of the Federal 
Reserve--Vice Chairman of the Federal Reserve when Alan 
Greenspan was Chairman, and had four or five really smart 
people to testify on deficit reduction, and one of them was 
Alan Blinder. And he said in his testimony, he said the 800-
pound gorilla in the room on deficit reduction is health care 
costs, Medicare and Medicaid businesses. It is just eating us 
alive. Eighteen percent of our GDP goes for health care costs 
in this country, 8 percent in Japan. They cover everybody. They 
get better results. It is killing us.
    And, he said, health care costs is the 800-pound gorilla. 
So, when it came time to ask questions, I said to him, Dr. 
Blinder, you said health care costs is the 800-pound gorilla in 
the room. What should we do about it? And he thought for a 
moment. I said, if you were in our shoes, what would you do? He 
thought for a moment. He waited. Finally, here is what I would 
do. He said, ``I am not a health economist. I am not an expert 
in this stuff, but here is what I would do. Find out what 
works. Do more of that.'' That is all he said. And, I said, do 
you mean find out what does not work and do less of that? He 
said, ``That is right.''
    So, with that, Mr. Tisch, and then I will stop.
    Mr. Tisch. Also on the list, I would look to put on the 
list how do you create jobs that will last a long time, and how 
do you create jobs that are going to create more jobs. The best 
thing you can do is put on jobs that--spend money on research 
that is going to create more jobs for more people to be 
employed. I think that is missing from the list.
    Senator Carper. OK. Thank you so much.
    Chairman Johnson. Thank you, Senator Carper.
    Here is one thing that works. How about we incentivize and 
celebrate success rather than demonize and demagogue against 
it. I mean, as you are growing your business, I mean, do you 
find it dispiriting, people say you are not paying your fair 
share or you do not care about your workers' safety. I have 
been in business myself. I actually was trying to build a 
business, create good paying jobs, and I think if more elected 
officials celebrated those types of successes, I think we would 
be doing better.
    Mr. Tisch. What works every time, if we can get positive 
incentives, it works much better than penalties every day.
    Chairman Johnson. One business concept that we were kind of 
hinting at, but we have not really named it, it is called 
benchmarking. I mean, if we are going to compete in a global 
economy--and, by the way, we have to compete, it is not a 
choice, I mean, we have to compete--we have to benchmark, 
right. So, again, is that not what we do in a SWOT analysis and 
in business, you would lay out your weaknesses and you have to 
benchmark those weaknesses against your competitors.
    Again, that is a tax system. That is a regulatory 
environment. The Ranking Member was talking about spending 18 
percent of our economy on health care. Well, back in 2009, that 
was about $2.5 trillion worth. So, there is a lot of concern 
about we have to get those costs under control, but I mentioned 
in my opening statement, we spend about $2 trillion complying 
with Federal regulations. Where is the effort to contain and 
control that expenditure?
    Listen, we all need regulations. We need that rules of the 
road. We want a clean environment. We want worker safety. We 
want product safety. But there is a concept called the law of 
diminishing returns, and I guess I would argue we probably 
passed the law of diminishing returns. We certainly do not have 
certainty in the legal environment, and we have so many laws, 
so many regulations, and those laws and regulations are 
enforced at the discretion of either prosecutors or district 
attorneys or regulators.
    Do you find you have a lot of certainty in business, Ms. 
Hogan.
    Ms. Hogan. I have certainty if I hire a legal team on just 
about every issue to make sure I am covered.
    Chairman Johnson. But, that is pretty efficient----
    Ms. Hogan. It is not efficient at all. Yes. I mean, I would 
like to spend a much larger percentage of my time with my 
customers and promoting the goods and services that we offer 
than the time that I spend with our attorney.
    Chairman Johnson. Mr. Tisch, I certainly talk to business 
people that legitimately complain about how much time they are 
spending, mental time, physical time, trying to comply with 
regulations, trying to make sure they are not getting in 
trouble, as opposed to literally trying to innovate and create 
and build. Do you find that in your business?
    Mr. Tisch. Every one of our businesses has legal issues, 
regulations that we have to deal with on a national level, on a 
State level, on a local level. Yes, it makes life much more 
difficult for us. Somehow, we manage to work through it, but if 
they were reduced dramatically, we would be much more 
productive. But, we look at it as a cost of doing business 
that----
    Chairman Johnson. A very high cost of business. And again, 
that is costing economic growth, which means that is costing 
those good long-term, self-sustaining----
    Mr. Tisch. It is a very high----
    Chairman Johnson [continuing]. Jobs in the private sector.
    Mr. Tisch. It is a very high cost. Some of it makes sense.
    Chairman Johnson. Well, sure.
    Mr. Tisch. I am not going to say it is all wasted money and 
it is all wasted effort. There are some that make sense. But, 
there are times when we make decisions as to where to do 
something based on the amount of regulation that is involved in 
doing something in a particular venue versus another venue.
    Chairman Johnson. There are a lot of regulations that make 
sense, to a point----
    Mr. Tisch. Right.
    Chairman Johnson [continuing]. Again, environmental, worker 
safety, product safety. Those make sense, but----
    Mr. Tisch. Those are all the first thing----
    Chairman Johnson [continuing]. You go beyond a point of no 
return.
    Mr. Tisch. We consider those the first thing before we 
consider anything else. But, after that, we make decisions 
based on where it makes most sense for us to conduct the 
business.
    Chairman Johnson. Governor Huntsman, you mentioned 
financial literacy. Senator Ayotte was talking about that, too. 
Here is the good news. We do not have to wait for necessarily 
the Federal Government to act. One of the reasons I actually 
decided I could afford to leave my business and run for the 
U.S. Senate is I was volunteering a lot of time in education in 
Oshkosh. Our first initiative was in Oshkosh. We actually had a 
financial literacy requirement added to our graduation 
requirements before the State Department of Public Instruction 
did. I mean, so you can get involved in your local school 
system and prompt the school board to actually instill those 
standards. So, that is actually good news and it is actually 
critical.
    I also wanted to mention, I was at a lunch No Labels event 
with you. I was on a panel. I do not know if you remember that.
    Mr. Huntsman. Of course, I do.
    Chairman Johnson. But, one of the panelists said, it starts 
with compromise, and that is extremely important, no doubt 
about it. But, I made the point, that is the last step in the 
process. Getting back to, then, laying out--it starts with 
reality, setting an achievable goal, then start developing 
strategies, and once you start laying out the different 
strategies, that is where you have to start compromise.
    Mr. Huntsman. That is right.
    Chairman Johnson. So, the way I like talking about this, 
and this is what I am hoping No Labels can bring to the table, 
is it starts with agreement. It starts with agreeing on the 
figures. For example, in business, if you sit down and 
negotiate, let us say you are buying a business. If the seller 
has got one set of audited books, or just set of books, and the 
buyer has got another set and they are completely different, 
you will never reach a successful negotiation. You actually 
have to have that audited set of books that everybody agrees 
on. So, to me, that is an extremely important part.
    Let us push the areas of agreement, and this is really what 
Senator Carper and I have done with the Committee, starting out 
with that area of agreement, our mission statement to enhance 
the economic and national security of America, laying out some 
initial priorities, whether it is border security, 
cybersecurity, regulatory reform, we are going to hopefully 
report out another at least dozen bills on a unanimous basis 
out of the Committee. They are maybe not grand slams--maybe 
they are bunt singles--but they are an incremental improvement 
to fixing something.
    And, I think, if we really concentrate on those areas of 
agreement, I think that is the better way of approach in terms 
of saying we have to compromise right away. Compromise will 
come, but there are a number of steps right before that.
    Senator Lieberman, again, you have been involved in this 
process. Would you just kind of comment on that.
    Senator Lieberman. Well, I think you are right on in what 
you have just said. Senator Ayotte referred to--about 
compromise. But, compromise is not where it begins. The problem 
solving process begins with identification of the problem, 
agreement on goals, which are quite generally, usually. And 
then you get into the strategy, some of the negotiating of what 
you really want to do. To get that done, you need compromise.
    So, the successful problem solving process does not begin 
with compromise, but it will not end successfully----
    Chairman Johnson. Without it.
    Senator Lieberman [continuing]. Unless people around the 
table are willing to compromise. As Senator Ayotte said, there 
is nothing wrong about compromise. We are not talking about 
compromising your principles. It is a question of accepting 
less than 100 percent. If you can get 50 or 60 or 70 percent--
my dad used to say a successful marriage is one in which both 
spouses think that their ideas are prevailing 80 percent of the 
time---- [Laughter.]
    And legislating is sometimes like that. Ted Kennedy was 
sort of the leading liberal of his time. He did a series of 
remarkable agreements with Republicans who were on his 
Committee, mostly really conservative Republicans, and he had 
what he variously called his 60, 70, or 80 percent rule, 
depending on--and the rule was, if we can agree on 60 percent 
of this bill before us--big bill, whatever it was, education, 
health--let us just set aside the 40 percent and let us do the 
60 percent. That is simplistic, but it led to a lot of 
significant bipartisan achievements.
    Chairman Johnson. No, it is completely accurate. Again, in 
my method of negotiating, when you lay out all the areas of 
agreement, if you spend a lot of time figuring out all the 
areas of agreement, you develop a relationship, you develop a 
level of trust, so when you finally come to those areas of 
disagreement, it is just a whole lot easier finding common 
ground, and what you may find is, let us not even deal with 
those. Let us just concentrate on the areas of agreement and 
move forward. And, again, that is why I am so encouraged about 
what you are trying to do here, you are trying to set up that 
process of agreement. Senator Carper.
    Senator Carper. Speaking of marriages, I love to talk to 
people who have been married, like, 50, 60, 70 years, and I 
always ask them, like, what is the secret for being married 50, 
60, or 70 years, and I get hilarious answers and I get some 
just terrific answers, as well. One of my favorite recent 
answers was a woman said her husband--they had been married 
almost 50 years, and I said, what is the secret, ma'am, and she 
said, ``He can be right or he can be happy.'' [Laughter.]
    He cannot be both. [Laughter.]
    Another good one, a couple had been married, like, over 60 
years, and I said to the wife, I said, what is the secret, 
ma'am, and she said, ``He is gone a lot.'' [Laughter.]
    I said to him, what do you think, sir, and he said, ``She 
is right. I am gone a lot.'' [Laughter.]
    But, my all time favorite answer is the two Cs--and we have 
been talking about them here, communicate and compromise.
    Senator Lieberman. Yes.
    Senator Carper. Communicate and compromise. And, if you add 
a third C--that would be collaborate--you have a pretty good 
prescription not just for an enduring marriage between two 
people, but an enduring democracy. To communicate, to 
compromise, to collaborate.
    And Mike Enzi, who is one of those people that Ted Kennedy 
collaborated a lot, I remember hearing Mike Enzi speak on the 
Senate floor one day when I was presiding and he talked about 
the 80/20 rule. And I talked to him afterwards, what is the 80/
20 rule? And he talked about he and Ted Kennedy, how much they 
got done. He is one of those conservative Republicans from 
Wyoming, Ted one of the most liberal Democrats from 
Massachusetts, and as you suggest, Mike Enzi said, ``Ted and I 
agree on about 80 percent of the stuff. We disagree on 20 
percent of the stuff. What we do is we work on the 80 percent 
that we agree on and we set aside the other 20 percent for 
another day.'' And, there is great wisdom in that, as well.
    I want to come back to Bowles-Simpson. Bowles-Simpson took 
up--they said, among the things we needed to do was entitlement 
reform. We still need to do that. It saves money, saves these 
programs, does not savage old people or poor people. It is 
consistent with Matthew 25, the least of these, and a moral 
obligation to them.
    But, when I was elected to the House in 1982--before I 
became Governor, I served in the House for a while, and among 
the first things I remember happening, we were sworn in on 
January 3, 1983, and we were told at orientation that the 
Social Security Trust Fund was going to run out of money that 
year--not, like, 20 years from now, not 30 years from now, that 
we were going to have to reduce payments by 20 or 30 percent. 
It is going to run out of money that year. Well, that is not 
good news.
    And then we found out that there had been a commission 
created, chaired by Alan Greenspan, included people like Bob 
Dole and Daniel Patrick Moynihan and others, and they came up 
with, actually, a prescription for solving the problem, 
restoring the solvency of the Social Security system, not 
forever, but for maybe 30, 40, 50 years. And they did hearings 
all over the country and they presented it to us to consider at 
the beginning of 1983.
    I will never forget, Tip O'Neill bought into it. Ronald 
Reagan bought into it. One, the leader of the House, the other, 
the leader of the country. And, basically, Tip O'Neill said 
this to Democrats. ``Any Democrat who attacks another Democrat 
for supporting this compromise, we will disown you, basically 
cut you off.'' Ronald Reagan said the same thing. ``Any 
Republican who attacks another Republican for supporting this 
compromise, we will disown you. We will essentially cut you 
off.''
    And, in the end, it did not pass by unanimous consent, but 
overwhelmingly, Democrat and Republican, and we passed it and 
did it again.
    I think the time has come. I am not a big commission guy 
and that sort, but I think the time has probably come to do a 
similar kind of commission for Social Security and maybe to set 
it up this year, to go to work this year, and to be able to 
report back to the new Congress at the end of this Congress and 
say, these are the options. And my guess, at the end of the 
day, they will look a lot like what Bowles-Simpson suggested.
    Here is what Bowles-Simpson suggested, as you may recall. 
To raise the full retirement age, now 67, raise it to 68 by 
2050, raise it to 69 by 2075. More to a chain consumer price 
index (CPI), which uses a different market basket of goods and 
services that people that are 65, 70, 80, 90 years old actually 
buy out of that market basket as opposed to the CPI. The other 
thing that was included in Bowles-Simpson was the cap. We pay 
the Federal Insurance Contributions Act (FICA) tax up to a 
certain income cap. I think they mentioned--they call for 
raising it, not eliminating it, but raising it further.
    But, they also had things in there to actually help in 
terms of the least of these, the poorest of the elderly, to 
make sure that we actually bumped up their income as they grew 
older. So, it was actually a pretty good balance, not perfect, 
but pretty good. But, that may be the ultimate solution, 
something like that.
    But, I think we need a mechanism to get us there, and there 
are a couple Democrats, Republicans, and one feisty Independent 
from a State up in the Northeast that were talking about 
actually creating a commission and then offering to say, here 
is one idea for the commission to consider. Would you react to 
that, anybody.
    Senator Lieberman. Well, as you know, securing Social 
Security and Medicare for the 75-year period is one of the 
national goals that the people of America told us they want us 
to deal with, and if in the wisdom of Congress or the new 
President, and maybe if you can do it now this would be a head 
start for 2017 and create such a commission, great idea.
    I mean, I think the answers--people are living--this comes 
back to education and facts. I mean, a lot of people---Social 
Security is so important to people. A lot of people live on it. 
That is all they have. But, really, a surprising number of 
people still feel that everything they get in the Social 
Security check is what they put into it, and, of course, that 
is not true. So, we have to convince people we are not going to 
eliminate Social Security or cut what they are getting now, but 
there have to be changes. So, if you can build to that on a 
bipartisan basis with a commission, more power to you.
    Senator Carper. All right. Does anyone else----
    Mr. Huntsman. Senator Carper, I think there is great power 
in what you are talking about. Simpson-Bowles fell a little bit 
flat because the political infrastructure was not in place to 
carry it very far, and what we are doing here is building out a 
very interesting political infrastructure, process-wise, 
grassroots-wise, the army here on Capitol Hill that are the 
problem solvers caucus. You can imagine doing the Simpson-
Bowles all over again and dropping it into the process that we 
have spent the last couple of hours talking about. I think the 
result would be quite different. So, let us imagine a world in 
which we can take that good work again and maybe connect it 
with some of the efforts that are ongoing here.
    Senator Carper. Mr. Tisch, Ms. Hogan, any thoughts?
    Mr. Tisch. I have just one additional thought, and that is 
that so much of the cost of Medicare is going to be tied up in 
treatment as people get older, in neurodegenerative diseases 
and end-of-life costs, and any kind of research that we can do 
now is going to be very important in the future as more and 
more people reach the limits of normal life expectancy. If we 
can figure out how to postpone any kind of terrible diseases 
through research and study right now, I think we are going to 
be saving money.
    But, there are plenty of ideas out there as to how to fix 
Medicare and Social Security. I think there is enough 
brainpower in Washington and enough compromise power that there 
is no doubt in my mind that we can come up with a solution, but 
it has to be both parties working together to come up with that 
solution.
    Senator Carper. Big cost drivers in health care: Obesity, 
end-of-life, dementia. There is a strong effort going on now to 
really get us to do a whole lot more on obesity, a whole lot 
more on obesity, prevention and so forth. But, dementia, 
AstraZeneca, I think Eli Lilly have some actually encouraging 
results on an early product that may help us there, end of 
life, and I think after what we went through with death panels 
and scare tactics and so forth, I think there is a willingness 
now to see what can we maybe agree on.
    One of the things I think we can agree on is the 
portability of a directive, health directive. Right now, if you 
move to another State or you go from one hospital to another 
institution, the directive does not go with you and folks end 
up as care providers and they are not sure what they should be 
doing, what is the will of this patient. So, there is----
    Mr. Huntsman. How about accessing insurance across 
boundaries? I mean----
    Senator Carper. Yes.
    Mr. Huntsman [continuing]. Just take a look at that as an 
aspect of health care costs. It would be a huge deal.
    Senator Carper. Good. Thank you. Thanks, Mr. Chairman.
    Chairman Johnson. Thank you, Senator Carper.
    One of the things I have learned from my Ranking Member, 
and maybe he learned it from you, Senator Lieberman, at the 
very end, as we are closing out a hearing, I just like to give 
the witnesses kind of one last chance, if something is just 
bubbling up to the surface, you just had to talk about 
something.
    So, we will start with you, Ms. Hogan. Is there a final 
comment you would like to make to close out the hearing?
    Ms. Hogan. Yes. I would like to address the establishment 
of this commission that you just talked about. In the current 
environment, I cannot get really excited about that, but what I 
could get really excited about is a commission, a bipartisan 
commission that stands up, states what their goals are, 
establishes a process for achieving those goals, and has a 
stated yardstick. How are we going to know when we got there? 
That would be terrific and I could be very supportive of that. 
Thank you.
    Chairman Johnson. Mr. Tisch.
    Mr. Tisch. I just want to again thank you, Mr. Chairman, 
and you, Senator Carper, for allowing us to address the 
Committee today and talking about No Labels. I truly believe 
that the problems that we have in this country are solvable. I 
would not be here if I did not. But, I also believe that they 
are solvable by everyone working together. And, I know that 
with the spirit within this Committee, and I believe that with 
each individual Senator and Congressman, that we have the 
capability of solving these problems and I am very hopeful. So, 
I thank you for the opportunity.
    Chairman Johnson. Thank you, Mr. Tisch. Governor Huntsman.
    Mr. Huntsman. Thank you, Senator Johnson, Senator Carper. 
This Nation of ours has all the attributes we need to succeed. 
We have everything any nation State would ever want to dream 
of. We have just got to get our act together on the political 
side and maximize the potential. So, we have laid out a 
process. We thank you for giving us the time. It is not only a 
good process, good politics, the American way, but I think 
there is an economic dimension, too, that is very important, 
because the marketplace has factored in a discount relative to 
our dysfunction politically. And, you can imagine a process 
that allows us to work toward a goal that the American people 
recognize as valid and important in their lives. The 
marketplace would respond, as you know, having been in the 
marketplace, in ways that I do not think we can even imagine. 
Thank you.
    Chairman Johnson. Thank you, Governor Huntsman. Senator 
Lieberman.
    Senator Lieberman. Thank you, Mr. Chairman. If you will 
allow me, on a point of privilege as a former Senator, I 
thought Senator Carper's stories about marriage were so good, I 
just wanted to tell him--just to respond, to give a gift in 
response for his gifts.
    I was just reading a great line from George Burns, remember 
the comedian? He once said, ``I was married by a judge. I 
should have asked for a jury.'' [Laughter.]
    I thought, OK. It is good to be back with you, Tom.
    Listen, Chairman Johnson, Senator Carper, I cannot thank 
you enough. This really is personal. I mean, in some sense, the 
work that I tried to do when I was here on this Committee, and 
now having watched from outside, because I identify so much 
with this institution, and feeling the frustration as I watch 
problems go unsolved and crises come closer, that I really 
decided to get involved in No Labels as the best movement to 
try to deal with this. And, people do not really know this, but 
this organization has growing grassroots support. We have 
branches now on more than 100 college campuses across the 
country. There are teams on the ground, and they will stay 
there right through the caucuses and primaries in Iowa and New 
Hampshire.
    I think we have something going here, and this Committee 
are the natural leaders to take this forward in whatever way it 
can be taken forward. I hope you will work with Senator Nelson 
and Senator Thune and become co-sponsors of the resolution 
embracing the idea of a National Strategic Agenda.
    I cannot thank you enough for giving us this hearing today. 
It is really a turning point, hopefully a tipping point, for No 
Labels, and we look forward to continuing working with you 
toward common goals, which is what this is all about.
    Chairman Johnson. Thank you.
    Senator Carper. Is it about marriage?
    Senator Carper. Who was that George Burns?
    Senator Lieberman. George Burns. Remember George--it is a 
little before your time, George Burns and Gracie Allen. 
[Laughter.]
    Senator Carper. Another person I do remember is Lily 
Tomlin.
    Senator Lieberman. Yes.
    Senator Carper. Lily Tomlin once said, ``When I was young, 
I wanted to be somebody. Now that I am older, I realize I 
should have been more specific.'' [Laughter.]
    A lot of people have wanted to be United States Senators. 
There are only a couple thousand, maybe two thousand in the 
history of our country who have been privileged to serve in 
these roles, and even fewer to be, I think, to be Governors. 
But, it is a great privilege to be able to serve in these 
roles.
    And, we get here and the challenges are daunting. But, 
another fellow--not a comedian, although he said a lot of funny 
things--was Einstein, and among the things that he said, I 
think most memorable are in adversity lies opportunity. Is that 
not true? In adversity lies opportunity, and we face plenty of 
adversity. But, also, there is a whole lot of opportunity. I 
like looking at problems. You probably do, too, and say, this 
is going to be fun to try to fix or solve. And, part of what we 
need is the kind of example that you are providing for, really, 
for all of us.
    We are challenged here. We have some things they did not 
have when Thomas Jefferson was saying things like, if the 
people know the truth, they will never make a mistake. We have 
a 24-hour news cycle. We have a situation where the amount of 
money that can go into campaigns are just unlimited--and we do 
not know, in some cases, where it comes from, where it is 
going.
    But, all that having been said, I think we have gotten 
through some really tough times, and if we can come through 
what we have come through before--Civil War, Revolutionary War, 
Great Depression, two World Wars, cold war--and emerge as the 
preeminent nation in the world, I think we can probably get 
through this, and I appreciate very much your helping to 
provide that.
    The last thing I am going to say is this. As far as I am 
concerned--I said it earlier, I have just huge respect for 
Senator Lieberman, former Attorney General, just a great leader 
for our country, and would have been a terrific President. I do 
not know as well Governor Huntsman, but everything I have heard 
about you--Mike Leavitt is one of my close friends, and he has 
told me much about you, and so has Orrin Hatch.
    But, when Joe ran for President, he did not make it past, 
really, the New Hampshire, Delaware primaries, and he is--and 
the same thing with Governor Huntsman when he ran for 
President. I think after, both of you, you stepped down or 
withdrew from the race. We have a situation today in America 
where we have congressional districts that are drawn up--we are 
pretty good at gerrymandering. This is going to be a Republican 
congressional seat. No Democrat will win it. And, the way the 
nature of primaries is, usually the most conservative, in some 
cases the most Tea Party Republican is going to win the seat 
and go to the Congress. And over here is a Democratic seat. It 
is going to be a Democratic seat. A Republican is not going to 
win this seat. And at the end of the day, the most progressive 
Democrat will end up winning the primary and become the 
Representative.
    When I was elected to the House of Representatives--we will 
say this is the dividing line. This is the center, the 
political center. We will say, Senator Lieberman, you are to 
the right, this is to the left. And, from the center right to 
center left, there are over 300 members there--over 300 people 
in the House of Representatives that were believed to be center 
left or center right. Today, the number is under 100. That 
explains a lot about why--but, add to that the 24/7 news cycle, 
the incredible amounts of money that can be thrown in these 
races to, really, in a lot of the cases, just to confuse 
people.
    Having said that--I remain optimistic. Who was it, Camus? I 
think it was Camus who said, leaders should be purveyors of 
hope. That is part of our obligation, to be uplifting, 
enlightening, not to beat people down, but to lift people up. 
And, you have lifted me up with your testimonies.
    Churchill once said these words. Two quotes, good quotes 
from Churchill. The one that was most famous was, ``Democracy 
is the worst form of government devised by wit of man except 
for all the rest''--except for all the rest. And the other is 
Churchill used to say of people on military duty who were 
actually doing, like, maybe with the reserves and they had a 
day job in their society, or they were in the guard and they 
had a day job in their society, and he used to call them twice 
the citizen. They are twice the citizen. All of you are twice 
the citizen and we admire you and applaud your appearance here 
today and your leadership. Thank you.
    Senator Lieberman. Thank you.
    Mr. Huntsman. Thank you.
    Senator Lieberman. Thank you both.
    Chairman Johnson. Thank you, Senator Carper.
    [Applause.]
    I think you accurately described the House, and, of course, 
there are obviously some red States and blue States that we 
have, certainly divisions here in the Senate. But then there 
are quite a few purple States. I represent one. And, so, there 
is less of that dynamic here in the Senate, which is why I 
think we can look to the Senate to hopefully lead on this 
issue.
    So, again, I want to thank all of you for being involved, 
for your time you have taken, for your thoughtful testimony. I 
think the fact that we held this hearing should indicate to you 
certainly my commitment, I think this Committee's commitment, 
to do everything we can to help you succeed. It is just 
critical. We have to solve these problems.
    In our organizing meeting, after we set that mission 
statement, after we agreed on those priorities, a certain 
aspirational goal for our Committee, and I said, listen, I do 
not question anybody's motives. I do believe that every member 
that ran, certainly in the Senate and the House, ran to 
accomplish something, to do right by their constituents, to 
solve these problems.
    And, the fact of the matter is in the U.S. Senate, in order 
to solve problems, you have to pass legislation. Currently, 
that requires--we have 54 Republicans. We need at least six 
Democrats to join us to pass things. And, so, we have six--
seven Democrats on this Committee, so the aspirational goal is, 
let us concentrate on the areas of agreement. Let us not worry 
about things that divide us. Let us worry about the things that 
we agree on, and that is certainly what you are trying to do, 
and we want to be fully supportive.
    Let me end kind of where I started, reality, because that 
is where it has to start. We have to lay out the reality of the 
situation. We have to tell the American people the truth. We 
have to have the courage to tell people the truth. From my 
standpoint, the reason nobody--even though I have been talking 
about a 30-year deficit, this massive deficit, for a couple of 
years, the reason it is not picked up on is because if you 
acknowledge that as an elected official, if you acknowledge the 
depth of the problem, you have to do something about it, and 
doing something about it is not going to be particularly fun. 
It is going to require bipartisanship. It is going to require 
people getting together and coming forward in front of the 
American people and leading. But, we first have to lead by 
telling the truth and laying out the realities.
    A couple comments on some things said. Senator Carper was 
talking about the Commission on Social Security, recognizing if 
we did not do something, benefits were going to be cut. That is 
the current law. If we do not do anything, when this 
bookkeeping convention runs out on the Trust Fund, benefits 
will be reduced to the level of receipts. So, it is just--you 
cannot take it off the table. You have to address it or we are 
going to be hitting something that the American people are not 
going to like, and they should not.
    We talked about curing diseases. One reality that I do not 
think is cooked into anybody's figures--I do not think it is 
cooked into the alternate fiscal scenario--is what is the cost 
of Alzheimer's? I am a fiscal conservative. I am highly 
supportive of the Federal Government spending money on basic 
science and research, spending money to cure diseases. We need 
to take a look at the grant writing process so those funds are 
allocated as best as possible.
    So, again, we have to start with reality. I am looking to 
your group. I am begging your group. As much as I appreciate 
those goals, please work with me, work with this Committee to 
lay out the reality and have the courage, give us the courage 
as elected officials to use what little bully pulpits we have 
to tell the American people the truth.
    And, let me finish with this last story, because it will 
tell you what my commitment is. Before I took over the 
Chairmanship--after the election, I knew I would be Chairman--
we started interviewing people for staff positions. I have been 
very fortunate, by the way, to be able to get some great staff, 
a lot of them from Senator Tom Coburn, who I think we both--he 
is a hero to--certainly to me, I think certainly Senator Carper 
respects them. We interviewed one individual, one female staff 
member, and she said, ``Senator Johnson, what would success 
look like a year into your Chairmanship?'' A darn good 
question. It is the kind of question I would ask somebody in an 
interview. I had not really thought about it in those terms, 
but I had an immediate answer. I said, if every Presidential 
candidate, both Republican and Democrat, were forced--I have 
to--it is kind of sad, I have to say forced--to address the 
issues we are going to raise in this Committee, that would be 
success. We cannot afford to have an election 2016 run on 
political platitudes and demagoguery. We have to have an effort 
like you are putting forward here with No Labels, where we go 
to the American people and we tell them the truth. That is what 
I am dedicated to doing.
    And, again, I appreciate your efforts. I appreciate your 
working with me on this.
    With that, the hearing record will remain open for 15 days, 
until July 2 at 5 p.m. for the submission of statements and 
questions for the record.
    This hearing is adjourned.
    [Applause.]
    [Whereupon, at 11:45 a.m., the Committee was adjourned.]

                            A P P E N D I X

                              ----------                              

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
